   TVA Locations
                                                                                                                                                                                                                                                                                                                                                      W .   V .

                                                               I     L         .
                                                           o       R i
                                                      i                v
                                                                           e
                                                                                   r
                                                                                                                                                                                         Lovers Lane                  K E       N T         U C K Y
                                                                                                                                                                                         Soccer Complex

                                                  h
                                                                                                                                                                      Paradise
                                                 O
                                                                                                                                                                      Fossil Plant
                                                             Shawnee
                                                           Fossil Plant                                                                                                                                                                                                                                               V     I R G           I N I A
                                                                                                                  Kentucky
   M   I S S O                 U        R    I                      Marshall                                      Dam & Lock                                                                                                                                                                                                                     Clear Creek Dam
                                                          Combustion Turbine                                                                                                                                                                                                                                      Duffield Primary School             Beaver Creek Dam
                                    r




                                                                                                                                                                                                                                                                                                                     Ft. Patrick Henry Dam South
                                e




                                                                                                                                                                                                                                                                                                                                           Holston Dam
                                                                                                                                                                                                                                                                                                                                   Boone Dam
                              i v




                                                                                                                                  C                                                                                                                                    Doakes                                                               Wilbur Dam
                                                                                                                                      u                                                                                                                             Creek Dam                       John Sevier
                                                                                                                                          m                                                                                                                                                  Fossil Plant & Dam
                         R




                                                                                                                        Cumberland                                                                                                                                                                                                           Watauga
                                                                                                                        Fossil Plant
  A R K .                                                            Gleason                                                                                           Adventure               Gallatin Fossil Plant                                                                                                                         Dam




                                                                                                                                              b
                                                                     Combustion Turbine                                                                           Science Center               &Combustion Turbine                         Morgan County           Buffalo




                                                                                                                                              e
                                                                                                                                                  r
                                                                                                                                                                                                                                       Vocational Technical                     Norris Dam
                        p i




                                                                                                                                                      l                                                                                                           Mountain                      Cherokee
                                                                                                                                                          a                                                                                         School                                                            Nolichucky
                                                                                                                                                              n                                                                                                                                 Dam
                                                                                                                                                                  d                                                                                                         Bull Run                                  Dam
                                                                                                                                                                       R                                                                                                    Fossil     Ijams
                    i p




                                                                                                                               Johnsonville                                i v                                        American Museum of Science and Energy                            Nature                Cocke County
                                                                                                                                                                                                                                                                            Plant
                                                                                                                               Fossil Plant &                                  e r                                                                                                     Center Douglas
                                                                                                                                                                                                                                                                                                Dam          High School
                                                                                                                               Combustion Turbine                                                                                                                       Melton
                   s




                                                                                                                                                                                                                                        Kingston Fossil Plant           Hill Dam
                                                                                                                                                                                                                                                                        & Lock
                s




                                                                              Cedar                                                                                                                                                                                         Ft. Loudoun Dam & Lock
                                                                    T         Dam E                                              N                            N                      E                    S                   S                   E                E
               i




                                                                     Pin Oak Dam                                                                                                                                                                                           Tellico                                        N O R T H
            s




                                                                   Redbud Dam                                                                                                                                        Great Falls Dam                                       Dam
                                                                    Beech Dam                                                                                                                                                                                                            Dollywood                     C A R O L I N A
           s




                      Lagoon                                       Dogwood Dam                                                                                                                                                       Watts Bar            Watts Bar
                                                                                                                                                                                                                                                          Dam & Lock
       i




       M                Creek                     Pine Dam    Lost Creek Dam                                                                                                                                                      Nuclear Plant
                   Combustion                         Sycamore Dam                                                                                                                                                                                                                      Fontana Dam




                                                                                                                                                                                                                                                      r
                       Turbine Brownsville




                                                                                                                                                                                                                                                      e
                                                                                                                                                                                          Normandy Dam
                               Combustion Turbine




                                                                                                                                                                                                                                                  v
                                                                                                                                                                                                                                                i
            BRIDGES Center                                                                                                                                                                                                                                      Apalachia




                                                                                                                                                                                                                                              R
                                                                                                                                                                                                              Sequoyah Nuclear Plant                            Dam
                                                                                                                                                                               Tims Ford Dam                                                      Ocoee #1 Dam          Hiwassee Dam
               Allen Fossil Plant,                                                                                                                                                                       Chickamauga Dam & Lock                                               Chatuge Dam
               Combustion Turbines, & Methane Facility                                                                                                                                                                                                      Ocoee #2 Dam
                                                                                                                   Pickwick Landing Dam & Lock                                                 Nickajack Dam & Lock
                                                                                                                                                                                                                                                                Ocoee #3 Dam Nottely Dam
                                                                                    Florence Water                                                                                                                             Raccoon Finley Stadium                                                                        S O U T H
                Southaven                                                                                                                                                                      Widows Creek                    Mountain
                                                      Magnolia                   Treatment Facility                                                                                              Fossil Plant                  Pumped                                  Blue Ridge Dam
                Combined-Cycle
                Plant                                 Combined-Cycle                                                                              Wheeler Dam
                                                                                                                                                  & Lock                                                                       Storage                                                                                    C A R O L I N A
                                                                                                                                                                                                 Bellefonte




                                                                                                                                                                                                                          e
                                                      Plant    Colbert Fossil Plant &                                                                     Browns Ferry                                                         Plant
                                                                                                                                                                                              Nuclear Plant




                                                                                                                                                                                                                         e
                                                                 CombustionTurbine                                                            Wilson      Nuclear Plant
                                                                                                                                               Dam




                                                                                                                                                                                                                      s
                                                                                                                                                                                              (UNDER CONSTRUCTION)
                                                                                                                                              & Lock




                                                                                                                                                                                                                     s
                                                                                                                                                                                                                e
                               University of Mississippi                                                                 Cedar Creek Dam
                                                                                                            e
                               Intramural Sports Complex                                                                                                                     Guntersville
                                                                                                                                                                                                              n
                                                                                               be




                                                                                                                          Little Bear Creek Dam                              Dam & Lock
                                                                                                                                                                                                          n
                                                                                       e e - To m b i g




                                                                                                                      Bear Creek Dam
                                                                                                                                                                                                       e



                                                                                                                                                                                             Albertville
                                                                                                          erw y




                                                                                                                                                                                                    T




                                                                                                                                                                                                                                                                   G     E   O R G           I A
                                                                                                             a




                                                                                                                                                                                             Diesel Generator
                                                                                                                       Upper Bear Creek Dam
                                                                                                            Wat
                                                                                           Te n n e s s




        M       I S S I S                        S    I        P     P         I

                                                                                                                                                                                                                                                                                                                      LEGEND
                                                                Caledonia                                                                             A       L       A    B     A M A                                                                                              State Line                                     TVA Combined-Cycle Plant
                                                           Combined-Cycle
                                                                    Plant                                                                                                                                                                                                           Water                                          TVA Combustion Turbine Plant

                                                                                                                                                                                                                                                                                    Power Service Area                             TVA Diesel Generator

                                                                                                                                                                                                                                                                                    TVA Watershed                                  TVA Pumped-Storage Plant
                                                 Mississippi
                                                       State                                                                                                                                                                                                                                                                       TVA Customer Service Office
                                                  University                                                                                                                                                                                                                        TVA Hydroelectric Dam
                                                                                                                                                                                                                                                                                    TVA Non-Power Dam                              TVA Economic Development Office
                                                                                                                                                                                                                                                                                                                                   TVA Watershed Team Office
                                                                                                                                                                                                                                                                                    TVA Coal-Fired Plant
                                                                                                                                                                                                                                                                                                                                   Green Power Switch® Solar Site
                                                                                                                                                                                                                                                                                    TVA Nuclear Plant
                                                    Kemper
                                                                                                                                                                                                                                                                                                                                   Green Power Switch® Wind Site
                                                 Combustion                                                                                                                                                                                                                         TVA Nuclear Plant
                                                    Turbine
                                                                                                                                                                                                                                                                                    Under Construction                             Green Power Switch® Methane Site
                                             Meridian
                                               Diesel
                                            Generator                                                                                                                                                                                                                                                        0         20          40        60 mi.
                                                                                                                                                                                                                                                                                                Sept. 2011                                            N




            TVA Power Generation FY 2011
            (in millions of kilowatt hours)

                                               Natural gas                                                                                                                 Nonhydro
                                            and/or oil-fired                                                                                                               renewable
                                                         5%                                                                                                                resources
                                                                                                                                                                           <1%                                                                      VV Coal - 74,583
                                                                                                                                                                                                              Coal
                                                                                                                                                                                                              52%
       Hydroelectric                                                                                                                                                                                                                                VV Nuclear - 49,562
                9%

                                                                                                                                                                                                                                                    VV Hydroelectric - 12,706

                                                                                                                                                                                                                                                    VV Natural gas and/or oil-fired - 6,809
                       Nuclear
                         34%
                                                                                                                                                                                                                                                    VV Nonhydro renewable resources - 17




Source: TVA FY 2011 Annual Report
                                 T a b l eof c o n t e n t s
                                           The Challenge of managing change




                    Message from the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

                    Special Feature .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

                    Executive Overview .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19

                    Organization .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23

                    Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

                    Evaluations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

                    Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

                    Legislation and Regulations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

                    Appendices .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52

                    Appendix 1 – Index of Reporting Requirements Under the Inspector General Act .  .  . 53

                    Appendix 2 – OIG Audit and Evaluation Reports Issued  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

                    Appendix 3 – Audit and Evaluation Reports Issued With Questioned and
                    	                              Unsupported Costs and Recommendations for Better Use of Funds .  .  . 56

                    Appendix 4 – Audit and Evaluation Reports With Corrective Actions Pending  .  .  .  .  .  . 58

                    Appendix 5 – Investigative Referrals and Prosecutive Results  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60

                    Appendix 6 – Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61

                    Appendix 7 – Government Contractor Audit Findings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62

                    Appendix 8 – Peer Reviews of the TVA OIG .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63

                    Glossary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65

                    Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 66

............................................................................................................................................................................................

                                                                                                                                                                     TVA OIG Semiannual Report | 3
Message from the
      INSPECTOR GENERAL
I am pleased to present our report for the period October 1, 2011,
through March 31, 2012. The theme of our semiannual is “Managing
Change,” and our feature highlights the challenges with managing
one particular change—the decision to increase the Tennessee Valley
Authority’s (TVA) reliance on nuclear energy.




In TVA’s lengthy history, one                                    As you will see from the results                                      Nuclear Power Group;
thing that has remained constant                                 of this semiannual period, the                                        and the effectiveness of
is change. This is especially true                               hard work of our OIG team has                                         remediating problem
today as TVA works to realign                                    resulted in about $12 million                                         evaluation reports at Watts
its generation portfolio, which                                  in recoveries, fines/penalties,                                       Bar Unit 2.
includes constructing new plants                                 potential savings, questioned
and idling others while keeping                                  costs, or funds put to better                                    VV 	Governance and compliance
rates low and continuing high                                    use. We also identified other                                        reviews, including reviews
reliability. The utility industry                                monetary losses resulting                                            of TVA’s budget process,
has always faced the need to be                                  from a capital project that had                                      information technology
nimble in adjusting to a volatile                                no realized benefits. Finally,                                       security and data protection,
market. Today, however, the                                      we have provided numerous                                            Winning Performance
challenges for companies like                                    recommendations to help                                              payouts, demurrage costs,
TVA seem to come more quickly.                                   TVA improve. Some of the                                             coal quality adjustments,
The effective management                                         highlights include:                                                  contract compliance reviews
of change has become even                                                                                                             related to other TVA program
more critical.                                                   VV TVA nuclear power program                                         areas, and other reviews
                                                                    reviews, including a look at                                      related to compliance with
The role of the Office of the                                       the Browns Ferry Nuclear                                          federal requirements.
Inspector General (OIG)                                             Plant Extended Power Uprate
in this area is: (1) providing                                      project and the Watts Bar                                     VV 	Investigations resulting in four
an objective, fact-based                                            Nuclear Plant (Watts Bar)                                        convictions, five indictments,
look at how well TVA is                                             Unit 2 project cost and                                          and one pretrial diversion
managing change;                                                    schedule; preaward reviews                                       related to falsification of
(2) identifying risk areas                                          of engineering, support,                                         quality control documents
associated with managing                                            and inspection services cost                                     at Watts Bar Unit 2; a
change; and (3) providing                                           proposals; nuclear-related                                       kickback scheme involving
recommendations to                                                  contract compliance reviews;                                     the president of a distributor
reduce risks.                                                       performance trends in the                                        and a distributor contractor;

...............................................................................................................................................................................................

4 | TVA OIG Semiannual Report
       a Ponzi scheme presented as                                 management team who during                                       In the end, our collaborative
       an opportunity to assist in the                             this last reporting period have                                  efforts will benefit all of our
       Kingston ash spill clean-up;                                requested reviews by the OIG                                     stakeholders.
       workers’ compensation fraud;                                and who have given their full
       and misuse of TVA funds.                                    cooperation in identifying
                                                                   challenges for TVA programs
  Finally, I would like to thank                                   and then adopted appropriate                                    Richard W. Moore
  the many members of TVA’s                                        solutions for those challenges.                                 Inspector General



............................................................................................................................................................................................

                                                                                                                                         TVA OIG Semiannual Report | 5
THE CHALLENGE of MANAGING CHANGE
          TVA OIG SEMIANNUAL REPORT
Special Feature
      THE C H ALLENG E O F                                                                                                                               Watts Bar Nuclear Plant

      MANAGING CHANGE
    Since its creation in 1933, TVA has a long history of benefiting the
    Tennessee Valley. While TVA has had much success, it has also faced
    significant challenges. For all of those years, one constant remains:
    change. How those entrusted with oversight and management of
    TVA have managed change has largely determined the degree of
    success the agency has achieved.




    Many changes over TVA’s                                        well or how poorly TVA manages                                   August 2011, the TVA Board
    storied history were beyond the                                change within its control.                                       approved the completion
    control of TVA Boards or TVA                                                                                                    of Bellefonte Nuclear Plant
    management. Some changes                                       In this feature article, the OIG                                 (Bellefonte) Unit 1 in Alabama,
    were driven by the anticipation                                highlights one particular change                                 which would add 1,260 MW of
    of deregulation, weather, and                                  by TVA: the strategic decision to                                generating capability. At an
    shifting political forces that                                 increase its reliance on nuclear                                 April 5, 2012, press conference,
    had their effect on the agency.                                energy. The strategic shift to                                   TVA management announced
    There remains, however, much                                   rely more on nuclear power                                       they would ask the TVA Board
    that both the TVA Board and                                    to meet generation needs is a                                    for an additional $1.5 billion
    TVA management can control,                                    change that must be managed                                      to $2 billion and to extend
    and focusing on what TVA can                                   well if it is to make the lives of                               Watts Bar Unit 2’s completion
    actually control has become                                    people in the Valley better.                                     date to December 2015. This
    increasingly critical. For                                                                                                      decision would also postpone
    example, TVA most assuredly                                    TVA currently has six nuclear                                    construction of Bellefonte
    can control its own strategy,                                  units at three sites in Tennessee                                Unit 1 because TVA has said
    its oversight of the enterprise,                               and Alabama with a total of                                      construction would not begin
    and the culture its leadership                                 about 6,700 megawatt (MW)                                        until Watts Bar Unit 2 was
    chooses to build. Therefore,                                   summer net capability.1 In                                       completed and fuel was loaded.
    creating and executing a clear,                                August 2007, the TVA Board
    achievable strategy, providing                                 of Directors approved                                            The role of the OIG in this area
    oversight, and having a strong                                 the completion of Watts Bar                                      is to offer objective, fact-based
    culture to support change                                      Unit 2 at a cost of about                                        audits and investigations that
    becomes of paramount                                           $2.5 billion, which would                                        accurately reflect how well TVA
    importance. The successes and                                  increase nuclear generation                                      is managing change, identify
    failures of TVA, in one form or                                capability by approximately                                      risk areas associated with
    another, all emanate from how                                  1,200 MW in 2013. Also, in                                       managing change, and provide

1
    Net capability is defined as the ability of an electric system, generating unit, or other system component to carry or generate power for a 	
    specified time period.
............................................................................................................................................................................................

                                                                                                                                         TVA OIG Semiannual Report | 7
information to help TVA reduce                                   vision are to be (1) our nation’s                                projections may vary, nuclear
its risks. While this feature                                    leader in improved air quality,                                  will provide a potential hedge
article focuses on TVA’s strategic                               (2) our nation’s leader in                                       for reduced reliance on coal.
decision to increase its reliance                                increased nuclear generation,                                    In other words, even if TVA’s
on nuclear energy, we do not                                     and (3) the Southeast’s leader in                                projections about future load
suggest that what we present                                     increased energy efficiency.                                     demand are wrong, TVA
here is a comprehensive picture                                                                                                   has determined that nuclear
on this topic. What we offer is                                  In April 2011, TVA’s Board                                       makes sense for many reasons.
limited to work we have done                                     of Directors approved an                                         Although nuclear plants are
during this reporting period                                     Integrated Resource Plan (IRP),2                                 expensive and complicated
and a review of Watts Bar Unit 2                                 which provides a framework for                                   to build, nuclear is seen as a
construction, which was issued                                   TVA’s long-term vision. The IRP                                  reliable source of base load
in May 2012. While our work in                                   provides for a more balanced                                     that produces large quantities
the nuclear area has revealed                                    generation portfolio by reducing                                 of electricity and, after hydro,
significant issues, TVA’s public                                 coal-fired generation capacity                                   has the lowest production costs.
acknowledgement of the reasons                                   and increasing nuclear, gas,                                     According to TVA, one nuclear
for the problems with the Watts                                  and renewables generation                                        unit can produce as much
Bar Unit 2 project suggests that                                 capacity, while placing more                                     electricity as 5 to 10 coal units,
there are real “lessons learned”                                 emphasis on energy efficiency                                    without producing emissions
that hopefully will help TVA                                     and demand response options.                                     attributed to smog, haze, acid
avoid the same mistakes in                                       The IRP projects, even with                                      rain, and climate change. Prior
the future.                                                      an emphasis on increased                                         to 2007, TVA generated more
                                                                 energy efficiency, TVA will need                                 than 60 percent of its power
Change in Strategic                                              additional generating capacity to                                from coal-fired plants, about
Vision and Integrated                                            handle future growth and replace                                 30 percent from nuclear power
Resource Plan
                                                                 aging coal units that are being                                  plants, and the remainder from
                                                                 retired to reduce the need for                                   hydro and other resources.
For most of TVA’s past, coal has
                                                                 significant capital investments to                               Under the new direction from
been the leading generating
                                                                 meet environmental regulations.                                  the IRP, nuclear could become
source. Faced with challenging
                                                                 TVA has committed to idle or                                     the largest source at 41 percent,
economic conditions, an
                                                                 retire 2,700 MW of coal-fired                                    coal at 31 percent, and gas,
aging generating fleet,
                                                                 generation by 2017 or about                                      hydro, and other sources would
environmental regulations, and
                                                                 18 of its 59 fossil units. As of                                 constitute the remaining
changing energy demand, TVA
                                                                 March 2012, TVA had idled                                        28 percent of TVA’s generation
reexamined its strategic
                                                                 11 units.                                                        portfolio.
direction for its generation mix.
In August 2010, TVA announced
                                                                 The IRP calls for increasing                                     TVA has announced a clear
its vision to become “one of
                                                                 the contribution of nuclear                                      vision for the future that involves
the nation’s leading providers of
                                                                 generation between 1,150 and                                     substantial change. Managing
low-cost and cleaner energy by
                                                                 5,900 MW. While demand                                           this change is likely to be the
2020.” Three components of the

2
    Integrated Resource Plan –TVA’s Environmental and Energy Future (http://www.tva.gov/environment/reports/irp/) serves as a roadmap to 	
    help TVA in making choices to meet the electricity demands of the Valley through 2029. In addition to TVA personnel, a Stakeholder Review 	
    Group was formed to provide TVA with their viewpoints, and the public was provided opportunities to participate in the process.
...............................................................................................................................................................................................

8 | TVA OIG Semiannual Report
 most important challenge for                                      is in short supply, meeting                                      disadvantaged area. TVA built
 TVA. Moving toward more                                           environmental requirements,                                      dams to control floods, improve
 nuclear will require successful                                   having adequate capital                                          navigation, and generate
 management of existing                                            funding available, and handling                                  electricity. TVA developed
 operational units while also                                      congressional and public                                         fertilizers, taught farmers new
 managing multi-billion dollar                                     perceptions.                                                     techniques to help yield better
 construction projects. TVA                                                                                                         crops, and improved the habitat
 has recognized that building                                      The Historical                                                   for wildlife and fish. As a result
 a supportive employee                                             Perspective                                                      of this investment in the Valley,
 culture is key to its success.                                                                                                     the region began drawing
                                                                   Any student of TVA’s history
 Organizational health is a long-                                                                                                   industries and jobs to the area.
                                                                   knows that over the last
 term goal requiring sustainable                                                                                                    In the 1940s, World War II
                                                                   79 years, TVA has recognized the
 progress to meet TVA’s                                                                                                             increased the need for electricity,
                                                                   need to change and has shifted
 considerable challenges. Some                                                                                                      and TVA began one of the
                                                                   the strategic direction of its
 of the challenges TVA faces                                                                                                        largest hydropower construction
                                                                   generation portfolio accordingly.
 in managing change include                                                                                                         programs ever undertaken and
                                                                   TVA’s Board, management, and
 remediating Nuclear Regulatory                                                                                                     built the first of its coal-fired
                                                                   employees worked diligently to
 Commission (NRC) compliance                                                                                                        generation plants. In the 1950s,
                                                                   make these changes successful
 issues at all three existing                                                                                                       TVA continued construction
                                                                   so TVA would remain an asset
 sites, overseeing costs and                                                                                                        on hydroelectric and coal-fired
                                                                   to the region. When TVA was
 schedules for construction                                                                                                         plants, and Congress passed
                                                                   created in 1933, the Tennessee
 projects, obtaining craft                                                                                                          legislation making the TVA
                                                                   Valley was a very poor and
 and specialty skill labor that                                                                                                     power system self-financing.
............................................................................................................................................................................................

                                                                                                                                         TVA OIG Semiannual Report | 9
The 1960s brought                  demand and increasing                 VV The voluntary shutdown by
unprecedented economic             construction costs resulted in           TVA in 1985 of its nuclear
growth to the Tennessee Valley.    TVA canceling several nuclear            units at Browns Ferry and
Electric rates were among the      plants, as did other utilities           Sequoyah Nuclear Plant
lowest in the nation and stayed    around the nation. TVA                   (Sequoyah) after experiencing
low as larger more efficient       completed six units on three             repeated outages caused by
generating units were brought      sites in Tennessee and Alabama           equipment and maintenance
into service. With the Valley’s    between 1974 and 1996.                   problems and delaying its
power needs expected to            Since the 1970s, TVA’s nuclear           request for the operating
continue to grow at a high         program has had its share of             license for Watts Bar.
rate, TVA began looking to         challenges including:                    According to the NRC,
nuclear plants as a new source                                              TVA had demonstrated
of economical power. In 1966,      VV A major fire in 1975 that led         “ineffective management
TVA embarked on an ambitious          to the shutdown of two units          in many areas of its nuclear
nuclear construction program          at Browns Ferry Nuclear Plant         program” and identified three
to build 17 units at seven sites      (Browns Ferry) for 18 months          general areas of concern:
across the Valley. However,           and fundamentally changed             (1) programmatic and
forecasted demand from the            the concept of fire protection        management deficiencies;
1960s did not materialize, and        and associated regulatory             (2) plant-specific deficiencies
the economy of the Valley and         requirements for United               at Browns Ferry, Sequoyah,
the nation took a downward            States (U.S.) nuclear power           and Watts Bar; and (3) a lack
turn. The decreasing energy           plants.                               of confidence expressed




                                                            1930s Era of Flood Control

                                                            Even by Depression standards, the
                                                            Tennessee Valley was in sad shape in 1933.
                                                            Much of the land had been farmed too hard
                                                            for too long, eroding and depleting the soil.
                                                            TVA, which was signed into existence by
                                                            President Franklin D. Roosevelt, built dams
                                                            to harness the region’s rivers. The dams
                                                            controlled floods, improved navigation, and
                                                            generated electricity.




             From
           New Deal
              to a
          New Century
  to the NRC by a number
  of TVA employees. TVA
  management set forth a
  strategy to remediate issues
  and revamp the nuclear
  program for TVA. The
  Sequoyah units were the
  first to be put back into
  production in 1988. Browns
  Ferry’s three units were put
  back into production in 1991,
  1995, and 2007 respectively.
                                    Browns Ferry Nuclear Plant

VV NRC findings at each of TVA’s
   nuclear sites during the past     identified issue with a valve;    a “white” finding (low to
   year, which means TVA’s           Watts Bar received a “greater     moderate safety significance)
   units are subject to increased    than green” finding (very         during the first quarter of
   oversight and inspection by       low safety significance) in       2012 due to the number of
   the NRC. Specifically, Browns     December 2011 as a result of      unplanned reactor shutdowns
   Ferry received a “red” finding    issues discovered in recent       in an 18-month period.
   (high safety significance) in     physical security inspections;    In April 2012, the NRC
   May 2011 because of a TVA         and Sequoyah Unit 1 received      announced it was lifting the




                                    1950s Era of the Coal-Fired
                                    Power Plants

                                    By the end of the war, TVA
                                    had completed a 650-mile
                                    (1,050-kilometer) navigation
                                    channel the length of the
                                    Tennessee River and had become
                                    the nation’s largest electricity
                                    supplier. Senator George W.
                                    Norris of Nebraska, known as the
                                    Father of TVA, is shown here at
 1940s Era of the Dams              Norris Dam.                           1960s Era of the Nuclear
                                                                          Power Plants
 During World War II,
 TVA engaged in one of                                                    The 1960s saw
 the largest hydropower                                                   unprecedented economic
 construction programs ever                                               growth in the Tennessee
 undertaken in the United                                                 Valley. Expecting the
 States. In early 1942, when                                              Valley’s electric power
 the effort reached its peak,                                             needs to continue to
 12 hydroelectric projects                                                grow, TVA began building
 and a steam plant were                                                   nuclear plants as a new
 under construction at the                                                source of economical
 same time.                                                               power.
   “white” finding and returning             Outstanding Improvement                 Browns Ferry Unit 3 for
   Sequoyah to a “green”                     in Performance “. . . in                scheduled refueling and
   status.                                   recognition of the most                 maintenance but not before
                                             extensive restart effort in the         setting a record for the
While TVA’s record in nuclear                nuclear industry, culminating           longest period all three units
generation has been plagued                  in the successful return to             have run continuously.
by events, such as those                     service of Unit 1 as the first
highlighted on the previous                  nuclear generating plant to         Nuclear Industry
page, most of TVA’s stakeholders             come online in more than a
realize that they have benefited             decade.”                            According to the U.S. Energy
from TVA safely generating a                                                     Information Administration
tremendous amount of power               VV Over the past 10 years, TVA’s        (EIA), the U.S. is the world’s
from its nuclear plants. TVA                nuclear units have supplied          largest producer of nuclear
has had successes in nuclear                almost 479 million kilowatt          power. While natural gas and
construction and operations,                hours of electricity, according      coal represents the largest share
such as:                                    to TVA’s 10-K and annual             of electric power generation
                                            reports.                             capacity in the U.S., for cost
VV 	TVA successfully completed                                                   and technical reasons, nuclear
    construction of Browns Ferry         VV TVA has had long continuous          power plants are generally
    Unit 1 in 2007, on time and             runs where a unit or all the         utilized more intensively,
    just slightly over budget. The          units at a site have produced        according to EIA. In addition,
    American Nuclear Society                power without a forced               companies have made technical
    presented TVA with the 2007             outage. Most recently, in            modifications to existing plants
    Utility Achievement Award for           April 2012, TVA shut down            (uprates) over the years to



                                                                1990s Era of Deregulation

                                                                As the electric-utility industry moved toward
                                                                restructuring, TVA began preparing for
                                                                competition. It cut operating costs by nearly
                                                                $800 million a year, reduced its workforce
                                                                by more than half, increased the generating
                                                                capacity of its plants, stopped building
                                                                nuclear plants, and developed a plan to
                                                                meet the energy needs of the Tennessee
                                                                Valley through the year 2020.



        1970s and 1980s

        The average cost of electricity in
        the Tennessee Valley increased
        fivefold from the 1970s to the
        1980s. Consequently, TVA
        began improving efficiency and
        productivity while cutting costs.
        By the late 1980s, TVA had
        stopped the rise in power rates
        and paved the way for a 10-year
        period of rate stability.
increase capacity. EIA also             Chernobyl in 1986, and                OIG Reports
states “. . . uprates, combined         Fukushima Daiichi in 2011—
with high utilization, have             which caused the industry             As discussed above, the role
enabled nuclear to consistently         and its regulator, NRC, to            of the OIG in this area is to
maintain a share of about 20% of        review the causes and issue           offer objective, fact-based
total electricity output.” TVA is       new requirements to improve           audits and investigations that
not the only utility to have filed      safety. On March 12, 2012, the        accurately reflect how well TVA
for approval to build or refurbish      NRC issued the first regulatory       is managing change, identify risk
nuclear units. In February 2012,        requirements for the nation’s         areas associated with managing
Southern Company received               104 operating reactors based on       change, and provide information
approval to build two units at          the lessons learned at the latest     to help TVA reduce its risks.
its Vogtle site in Georgia at           nuclear disaster, Fukushima,          During this semiannual reporting
a cost of $14 billion for two           in Japan. These requirements          period, we completed several
1,100 MW units. The economy,            must be implemented no later          audits and investigations that aid
as well as lower gas prices,            than December 2016. Major             TVA management in identifying
however, has again caused some          events, such as those described       areas where programs are, or
utility companies to slow their         above, typically lead to              are not, working well. Our
plans for additional nuclear            additional modifications, which       discussion below is limited to
capacity.                               increase the capital costs for        OIG work involving TVA’s nuclear
                                        nuclear generation.                   power program during this
The industry has encountered                                                  reporting period and our review
three major nuclear events—                                                   of the Watts Bar Unit 2 cost and
Three Mile Island in 1979,                                                    schedule, which was issued in




                                                             2010s

                                                             TVA is working to improve its core business in the areas
                                                             of low rates, high reliability, and responsibility and meet
                                                             the region’s needs for the future by: leading the nation
                                                             in improving air quality and increased nuclear production
                                                             as well as leading the Southeast in increased energy
                                                             efficiency.

                                                             TVA affirmed its commitment to improve the region’s
  2000s                                                      environment when plans were adopted to retire
                                                             18 of TVA’s 59 coal-fired units by the end of 2017. In
  During the first decade of the 21st century, TVA           November 2011, plans were approved for completing
  introduced the first green power program in the            one of the two partially built reactors at Bellefonte
  Southeast when it launched the Green Power                 by 2020.
  Switch® program on Earth Day 2000. In 2004, TVA
  established a nine-member part-time board in
  place of its three-member full-time board.

  To meet growing power demand, the last of the
  three reactor units at Browns Ferry was returned to
  service as scheduled in May 2007. In August 2007,
  plans were approved to complete construction of
  Watts Bar Unit 2.

  On Dec. 22, 2008, a storage pond dike failed at the
  Kingston Fossil Plant in East Tennessee prompting
  a massive cleanup and restoration of the area.
May 2012. Some highlights of                                   are committed to improving                                        TVA personnel, and reviews
our work include:                                              the culture of TVA through                                        of project documentation,
                                                               transformation initiatives and                                    we determined the poor
Browns Ferry Extended                                          other actions including creating                                  performance experienced at
Power Uprate—This review was                                   and maintaining an environment                                    Watts Bar Unit 2 was attributable
requested by TVA management                                    where all employees feel                                          primarily to (1) deficiencies in
because of concerns they had                                   comfortable raising concerns to                                   project set-up and (2) ineffective
over this project. During 1999,                                management or through any of                                      management oversight.
TVA began conceptualizing an                                   the multiple available avenues.
Extended Power Uprate (EPU)                                                                                                      Problems with the original
project, which would increase                                  Watts Bar Unit 2 - Cost and                                       project set-up included the
the generation capacity                                        Schedule—The Watts Bar                                            following:
of Browns Ferry by 15 percent.                                 Unit 2 construction project has
The project began in 2001 and                                  experienced significant schedule                                  VV The project’s detailed
was expected to be completed                                   and cost overruns. The project                                       scoping, estimating, and
in two to four years based                                     was originally expected to be                                        planning study was not as
on industry-wide experience;                                   complete in October 2012 at a                                        robust as it should have been
however, the Browns Ferry                                      cost of just under $2.5 billion.                                     to provide accurate schedule
project remains incomplete.                                    However, TVA will not meet                                           and cost estimates.
The OIG performed an                                           these targets. The OIG alerted
extensive inquiry and identified                               the TVA Board that the schedule                                   VV Certain planned prime
the primary causes for the                                     and budget were in jeopardy                                          subcontractor agreements
continuing delays and cost                                     due to various problems. In                                          were not implemented,
overruns. The OIG concluded                                    mid-2011, we met with TVA                                            ultimately requiring TVA to
TVA senior management’s                                        executives to brief them on                                          enter into direct contracts.
decisions early in the EPU                                     our concerns surrounding the
project were the most significant                              project. In August 2011, we                                       VV TVA’s ability to remove
factor in the lack of progress in                              briefed the TVA Board’s Audit,                                       Bechtel from the project
the project. TVA spent                                         Risk, and Regulation Committee                                       if problems occurred was
about $97 million on direct                                    on our concerns and gave them                                        limited because Bechtel
EPU costs and $26.5 million                                    the preliminary findings that are                                    was the American Society
on incremental fuel costs since                                now contained in the written                                         of Mechanical Engineers
2001. Additionally, TVA’s                                      report completed after the                                           certification holder.
marginal costs for replacement                                 briefings.
power ranged from $373 million                                                                                                   VV Construction began before
to $448 million as a result of                                 We found two primary reasons                                         engineering progress
not achieving the EPU by the                                   for the schedule and cost                                            had reached a sufficient
targeted dates. TVA executive                                  overruns. Based on our                                               level, causing significant
management acknowledged                                        assessment of the issues raised                                      productivity and work quality
cultural issues, which may                                     in various meetings, discussions                                     issues.
still exist, and stated they                                   with Watts Bar Unit 2 and


 ...............................................................................................................................................................................................

 14 | TVA OIG Semiannual Report
Watts Bar Nuclear Plant




    Project management in key areas                                  TVA has taken several actions to                                 the project’s progress, engage
    was also ineffective. Specifically,                              address the problems identified                                  and improve the relationship
    TVA management did not:                                          at Watts Bar Unit 2. These                                       with the project workers, and
                                                                     actions include management                                       promote transparency.
    VV Perform effective oversight                                   changes, developing an updated
       of the engineering,                                           cost and schedule estimate, and                                  Effectiveness of Remediation
       procurement, and                                              conducting an extensive root-                                    of Problem Evaluation
       construction contractor.                                      cause analysis to understand                                     Reports—Nuclear employees
                                                                     the underlying issues, including                                 and contractors have various
    VV Address certain warning                                       the development of corrective                                    methods that can be used
       signs that the project was in                                 actions to address the identified                                to identify and promptly
       trouble.                                                      issues. Some of the corrective                                   report problems and adverse
                                                                     actions include developing                                       conditions for evaluation and
    VV Adequately mitigate known                                     weekly project and high-                                         corrective action. Concerns
       problems related to staffing,                                 level status reports, a project                                  may be reported through line
       work order packages,                                          assurance function, an alignment                                 supervision, the Corrective
       information provided to the                                   and engagement strategy, a                                       Action Program, or either TVA’s
       NRC, and the procurement of                                   communication plan, and team                                     or the contractor’s Employee
       materials that require a long                                 rules. These items are intended                                  Concerns Program. When
       lead time to obtain.                                          to offer an accurate reflection of                               problems are identified, a

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 15
problem evaluation report (PER)                                Nuclear Power Group’s                                             to initiatives that focused on
is initiated so the problem can                                Performance Trends—The                                            equipment reliability and a gap-
be captured, categorized by a                                  Institute of Nuclear Power                                        based business plan. We also
project review committee, and                                  Operations (INPO) compiles                                        reviewed elements of the culture
remediated. As a result of issues                              performance trends for nuclear                                    in the Nuclear Power Group and
discussed during meetings at                                   performance, safety, and                                          noted that while management
Watts Bar, we reviewed the                                     reliability of nuclear facilities.                                has taken some corrective
PER process for Watts Bar                                      We reviewed INPO index data,                                      actions, the culture could be
Unit 2 and the effectiveness of                                an industry standard, for the                                     further enhanced by addressing
remediation. In summary, we                                    years 2005 through 2010. We                                       certain issues.
found opportunities to improve                                 found TVA’s nuclear group
the effectiveness and efficiency                               performance with respect to the                                   Falsification of Quality Control
of the process, most notably in                                INPO index, declined through                                      Documents—Prior to this
the areas of timely closing of                                 2007 primarily because of                                         reporting period, investigations
Corrective Action Plans (CAP)                                  planned and forced outages,                                       revealed a contractor electrician
and improving trending of PERs.                                but performance improved                                          and his supervisor falsified
                                                               from 2008 through 2010 due                                        quality control documents at


 ...............................................................................................................................................................................................

 16 | TVA OIG Semiannual Report
    Watts Bar Unit 2. The electrician                                management to effectively                                        (4) TVA had “no easy catch
    had been assigned to inspect                                     oversee the construction of                                      metrics” that could be used in
    and measure cables that were                                     nuclear reactors. Essential to                                   TVA’s oversight process to give
    to carry energy to systems                                       TVA’s success in building new                                    insight into when things were
    inside the containment area,                                     nuclear generation capacity is                                   not going right.
    including to safety equipment.                                   transparency and accountability.                                 Not only did TVA management
    The electrician attested he                                      There is evidence TVA is making                                  step up and name their
    completed microreadings of                                       a deliberate decision to be                                      mistakes, they also cited what
    the cables when he had not.                                      more transparent in explaining                                   steps TVA is taking to avoid
    The subordinate subsequently                                     its operations when mistakes                                     these mistakes again. TVA
    came to his supervisor admitting                                 are made. What should also be                                    management also indicated
    micrometer measurements                                          apparent to TVA stakeholders is                                  they would be reviewing their
    had not been done at the                                         evidence that TVA management                                     plan for Bellefonte in light of
    time the job should have been                                    is owning their problems in                                      the problems at Watts Bar
    completed. The supervisor then                                   a transparent way and taking                                     Unit 2. Applying lessons
    directed the subordinate to                                      responsibility for management                                    learned from Watts Bar Unit 2
    enter micrometer measurements                                    failures.                                                        to future projects is critical to
    onto the appropriate quality                                                                                                      TVA’s success in building new
    control forms. After the                                         Perhaps more than anything                                       generation capacity to achieve
    false entries were made, the                                     else, TVA’s press conference                                     a more balanced generation
    supervisor executed a work                                       on April 5, 2012, addressing                                     portfolio.
    closure form certifying the work                                 the Watts Bar Unit 2 schedule
    had been completed when he                                       and budget overruns suggests                                     Despite the significant failure
    knew the work had not been                                       that TVA is more likely to                                       of TVA management to meet
    done. During this semiannual                                     apply lessons learned to                                         its projections on Watts Bar,
    period, the electrician and his                                  future construction of nuclear                                   this level of transparency is
    supervisor were each sentenced                                   generation facilities. Rather than                               critical to TVA stakeholders who
    to 100 hours of community                                        deflect blame, TVA leadership                                    have an interest in how well
    service and two years of                                         stepped up and specifically                                      TVA manages the construction
    probation.                                                       named what mistakes were                                         and operation of its nuclear
                                                                     made. In the press conference,                                   fleet. We would also add that
    Transparency and                                                 Mike Skaggs, Senior Vice                                         the OIG has engaged in good
    Accountability                                                   President, Nuclear Construction,                                 faith dialogue with current
                                                                     stated TVA was refocusing and                                    TVA management during
    The audits and investigations                                    “trying to get back on track.”                                   these reviews. This type of
    that we conducted in the                                         He stated there were four                                        dialogue fosters an atmosphere
    nuclear area resulted in findings                                causes for the schedule and cost                                 of improving TVA rather than
    that highlight significant                                       estimates being so far off base.                                 merely finding fault or shifting
    problems in TVA’s nuclear                                        Specifically, Mr. Skaggs cited                                   blame. In the end, better
    program. Specifically, the OIG                                   (1) “leadership,” (2) “cost                                      solutions for a better TVA are
    report on the Watts Bar Unit 2                                   estimate was too low,”                                           being found. This is a critical
    schedule and budget overruns                                     (3) “management failed to                                        part of effectively managing
    naturally raises questions                                       execute the project as it had                                    change at TVA and, ultimately,
    about the competency of TVA                                      defined in its own plans,” and                                   making TVA better.

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 17
executive overview
  TVA OIG SEMIANNUAL REPORT
 Executi ve overVIEw
 Change is one thing that has endured over TVA’s 79 years. Today
 is no different. TVA’s vision is to be “one of the nation’s leading
 providers of low-cost and cleaner energy by 2020.” To achieve this
 vision requires changing the generation portfolio—less coal-fired
 capacity and more nuclear and renewable energy capacity as well
 as more focus on energy efficiency. How well TVA manages these
 changes will determine its success. In our feature, we talk about
 one of the areas of change—the strategic decision to increase TVA’s
 reliance on nuclear energy.
                                                                                                                                      TVA Towers, Knoxville



 The OIG’s role is to (1) offer fact-                              OIG also identified numerous                                     Contract Audits
 based audits and investigations                                   opportunities for TVA to improve                                 To support TVA management
 that accurately reflect how well                                  program operations.                                              in negotiating procurement
 TVA is managing change,                                                                                                            actions, we completed four
 (2) identify risk areas, and                                      Operational Audits                                               preaward reviews of cost
 (3) provide information to help                                   In order to provide assurance                                    proposals submitted by
 TVA reduce its risks. In this                                     on the reliability of TVA’s                                      companies proposing to provide
 semiannual report to Congress,                                    system of operational controls,                                  (1) engineering services for work
 we highlight key audits,                                          we completed an audit of                                         at Bellefonte Unit 1, (2) indirect
 evaluations, and investigations                                   demurrage costs, which                                           support services at Watts Bar,
 that provide insight into how                                     identified almost $4 million in                                  (3) a perimeter stabilization
 TVA can improve its operations.                                   questioned costs and funds that                                  project for a TVA fossil plant,
                                                                   could be put to better use. In                                   and (4) inspection services to
 AUDITS                                                            addition, we completed three                                     support TVA’s nuclear power
                                                                   reviews related to TVA’s budget                                  program. Our audits identified
 During this reporting period,                                     process, the effectiveness                                       $6.2 million of potential savings
 the TVA OIG completed                                             of PERs at Watts Bar Unit 2,                                     opportunities for TVA to
 20 audits, reviews, and                                           and coal quality adjustments.                                    negotiate. We also completed
 agreed-upon procedures                                            Finally, we applied agreed-                                      three compliance audits of
 related to TVA’s nuclear power                                    upon procedures to TVA’s                                         contracts with expenditures
 program, coal, contracting,                                       2011 Winning Performance                                         totaling $384 million related to
 information technology (IT),                                      (WP) payout and performed                                        (1) modification, supplemental
 corporate governance, and                                         procedures to monitor the                                        maintenance services, and
 compliance with various federal                                   external auditors’ fiscal year (FY)                              technical support services at
 requirements. This work                                           2011 audit of TVA’s financial                                    TVA nuclear plants; (2) fly ash
 identified almost $12 million in                                  statements. The Operational                                      management services;
 questioned costs and funds that                                   Audits section begins on                                         and (3) modifications and
 could be put to better use. The                                   page 29 of this report.                                          supplemental maintenance work


............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 19
Kingston Fossil Plant




    at TVA fossil and hydro plants.                                 appropriate controls are in place,                               different vendors; (3) security
    These audits identified potential                               the IT Audits team completed                                     controls for one TVA facility;
    overbillings of $1.6 million. The                               five audits pertaining to: (1) the                               and (4) TVA compliance with the
    Contract Audits section begins                                  Federal Information Security                                     Maritime Transportation Security
    on page 33 of this report.                                      Management Act (FISMA) of                                        Act (MTSA) of 2002. The IT
                                                                    2002; (2) data protection controls                               Audits section begins on
    IT Audits                                                       for TVA’s personally identifiable                                page 34 of this report.
    To ensure TVA’s IT assets                                       information (PII)/personal health
    are properly secured and                                        information (PHI) held by two


   ...............................................................................................................................................................................................

   20 | TVA OIG Semiannual Report
                                                                     Corporate Governance and                                         Evaluations section begins on
                                                                     Finance Audits                                                   page 39 of this report.
                                                                     With a focus on TVA’s role as
                                                                     a regulator, TVA distributors’                                   INVESTIGATIONS
                                                                     compliance with the wholesale
                                                                     power contracts, and TVA’s                                       During this reporting period,
                                                                     financial reporting, we                                          our findings produced four
                                                                     completed a mandated review                                      convictions, five indictments,
                                                                     of TVA’s compliance with the                                     and one pretrial diversion.
                                                                     Improper Payment Information                                     Individuals were prosecuted
                                                                     Act (IPIA) of 2002, as amended,                                  in state and federal venues on
                                                                     as well as two audits of TVA                                     various charges, such as workers’
                                                                     distributors to determine                                        compensation fraud, mail and
                                                                     compliance with key contract                                     wire fraud, false statements,
                                                                     terms between TVA and the                                        and theft. Additionally, one
                                                                     distributors. The Corporate                                      administrative investigation
                                                                     Governance and Finance Audits                                    identified $97 million spent on
                                                                     section begins on page 36 of this                                an unsuccessful nuclear
                                                                     report.                                                          power EPU project as well as
                                                                                                                                      $26.5 million in incremental
                                                                     EVALUATIONS                                                      fuel costs and an estimated
                                                                                                                                      $373 million in marginal
                                                                     We assessed the Nuclear Power                                    costs for replacement power.
                                                                     Group’s performance trends and                                   Other investigations garnered
                                                                     certain cultural elements. The                                   restitution, fines, and fees
                                                                                                                                      exceeding $19,000. We opened
                        STATISTICAL HIGHLIGHTS                                                                                        178 investigations and closed
                                  October 1, 2011 - March 31, 2012                                                                    202. The Investigations section
                                                                                                                                      begins on page 41 of this report.
   Audit Reports Issued                                                              20
   Evaluations Completed                                                             1
   Questioned Costs                                                                  $5,110,209
   Disallowed Costs                                                                  $5,695,122
   Funds Recovered                                                                   $1,143,164
   Funds to Be Put to Better Use                                                     $6,701,600
   Funds Realized by TVA                                                             $2,440,634
   Investigations Opened                                                             178
   Investigations Closed                                                             202
   Recoveries/Savings/Fines/Penalties                                                $19,217
   Other Monetary Loss                                                               $496,500,000
   Criminal Actions                                                                  10
   Administrative Actions (No. of Subjects)                                          19



............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 21
                           TVA OIG
        Organization

                                               Inspector General

                                              Deputy Inspector General




Assistant Inspector General,    Assistant Inspector General,    Assistant Inspector General,
                                                                                                  Legal Counsel
       Investigations             Audits and Evaluations               Administration


 Special Agent in Charge         Deputy Inspector General,
                                          Audits                Manager, Human Resources       Deputy Legal Counsel

 Special Agent in Charge
                                     Director, IT Audits
                                                                   Public Affairs Officer

                                Director, Operational Audits


                               Director, Corporate Governance
                                     and Finance Audits



                                  Director, Contract Audits



                                    Director, Evaluations
  ORGANIZATION

  The OIG’s most important
  resource is its people. Our
  team is made up of experienced
  auditors, investigators, and
  administrative staff. The OIG
  is an independent office within
  TVA and is headquartered
  opposite TVA corporate offices
  in TVA’s East Tower, overlooking
  downtown Knoxville.

  Inspector General Richard
  Moore believes that in order to
  effectively provide oversight to
  TVA, we must be strategic in our
  placement of OIG employees.
  As such, the Inspector General
  (IG) has worked to ensure that
  our office has a presence at
  or near all major TVA facilities                                  Downtown Knoxville
  throughout the Tennessee Valley.

  In late September, OIG                                           organizational health. Key                                            Audits. The Directors of these
  management announced a                                           aspects of the reorganization                                         three teams report directly to
  reorganization of the OIG’s                                      are mentioned in the following                                        the Deputy AIG for Audits.
  audits and inspections function                                  department descriptions. The
  and the establishment of a                                       upper management position                                        VV The Audits’ quality assurance
  Deputy Assistant Inspector                                       changes that took place to                                          (QA) function now reports to
  General (AIG) for Audits.                                        support the reorganization are                                      the Deputy IG.
                                                                   described below.
  The reorganization is a part                                                                                                      TVA OIG Office Locations
  of our strategic planning                                        VV The AIG for Audits and                                        The OIG has a major satellite
  to ensure a high performing                                         Inspections’ title was changed                                office in the Edney Building in
  OIG. Performance is driven by                                       to AIG for Audits and                                         Chattanooga, Tennessee, where
  two key components:                                                 Evaluations.                                                  the Evaluations unit, members
  (1) operational excellence and                                                                                                    of the Corporate Governance
  (2) organizational health. The                                   VV A new Deputy AIG for Audits                                   and Finance team, and several
  changes have helped us function                                     position was created. This                                    investigators are located. There
  better operationally and have                                       position focuses primarily on                                 are also staffed field offices at
  continued to support good                                           Contract, IT, and Corporate                                   Watts Bar in Tennessee; and
                                                                      Governance and Finance                                        also in Nashville, Tennessee;


............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 23
                                                                                                                                                                     Fontana Dam




Huntsville, Alabama; and                                       designed to drive and enhance                                    stakeholders. Based upon the
Mayfield, Kentucky.                                            productivity in achieving office                                 results of these engagements,
                                                               goals. Responsibilities include                                  the Audits and Evaluations group
As of March 31, 2012, the                                      personnel administration, budget                                 makes recommendations to
OIG had a total staff of 105.                                  and financial management,                                        enhance the effectiveness and
The number of personnel                                        purchasing and contract                                          efficiency of TVA programs and
located at each staffed office                                 services, facilities coordination,                               operations.
is: Knoxville-81, Watts Bar-1,                                 office-wide meeting planning,
Chattanooga-16, Nashville-2,                                   communications facilitation, and                                 The group uses an impact- and
Huntsville-4, and Mayfield-1.                                  IT support.                                                      risk-based approach to develop
                                                                                                                                an annual work plan. The
ADMINISTRATION                                                 AUDITS AND EVALUATIONS                                           plan considers TVA’s strategic
                                                                                                                                plans, major management
The Administration team works                                  The Audits and Evaluations                                       challenges, TVA’s enterprise risk
closely with the IG, Deputy IG,                                group performs a wide variety                                    management process, and other
and AIGs to address the day-to-                                of engagements designed                                          input from TVA management.
day operations of the OIG and to                               to promote positive change                                       The planning model also
develop policies and procedures                                and provide assurance to TVA                                     evaluates each potential

 ...............................................................................................................................................................................................

 24 | TVA OIG Semiannual Report
   engagement from the standpoint                                   This dynamic team is made up                                          conducts operational reviews
   of materiality (i.e., costs or                                   of four departments—Contract                                          to assess the results as well as
   value of assets), potential                                      Audits, Corporate Governance                                          the economy and efficiency of
   impact, sensitivity (including                                   and Finance Audits, IT Audits,                                        TVA’s financial programs.
   public and/or congressional                                      and Operational Audits.
   interest), and the likelihood it                                                                                                  VV IT Audits has lead
   will result in recommendations                                   VV Contract Audits has lead                                         responsibility for audits
   for cost savings or process                                         responsibility for contract                                      relating to the security
   improvements. The result of the                                     compliance and preaward                                          of TVA’s IT infrastructure,
   Audits and Evaluations planning                                     audits. In addition, this group                                  application controls, and
   process is a focus on those issues                                  performs reviews of TVA                                          general controls associated
   of highest impact and risk to                                       contracting processes and                                        with TVA systems. This group
   TVA.                                                                provides claims assistance as                                    also performs operational
                                                                       well as litigation support.                                      reviews of the effectiveness of
   The Audits team, primarily                                                                                                           IT-related functions.
   based in Knoxville, generates                                    VV Corporate Governance and
   and oversees comprehensive                                          Finance Audits, formerly                                      VV Operational Audits, formerly
   financial and performance audits                                    Distributor Audits, has lead                                     Financial and Operational
   of TVA programs and operations,                                     responsibility for oversight                                     Audits, became a separate
   providing an inclusive picture                                      of TVA’s regulatory activities,                                  unit to focus on risk and
   of TVA’s overall fiscal and                                         including TVA distributors’                                      impact-driven operational
   operational health.                                                 compliance with the                                              audit work. The team
                                                                       wholesale power contract and                                     performs audits of operational




      Bellefonte Nuclear Plant




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 25
    effectiveness and efficiency,                              and analytical information,
    as well as TVA compliance                                  monitoring compliance,
    with laws and regulations.                                 measuring performance,
                                                               assessing the efficiency and
The Evaluations team, formerly                                 effectiveness of operations,
Inspections, seeks to ensure                                   and/or conducting inquiries
that program objectives                                        into allegations of fraud, waste,
and operational functions                                      abuse, and mismanagement.
are achieved effectively and
efficiently. It performs both                                  Audit and evaluation issues
comprehensive reviews and                                      vary depending on the
more limited scope policy and                                  objectives of the project. The
program reviews. In accordance                                 following graphic shows some
with the Quality Standards for                                 representative examples of                                                                            Fort Loudoun Dam
Inspection and Evaluation, the                                 issues commonly reported by
objectives of the unit include                                 each department.
providing a source of factual




                                  Types of Audit & Evaluation Issues

                                  Corporate Governance and                                                 Operational Audits
                                       Finance Audits                                             •	 Operational Inefficiency
                                 •	 Improvements Needed in                                        •	 Not Achieving Intended Results
                                    TVA Oversight                                                 •	 Inferior Performance
                                 •	 Internal Control Deficiencies                                 •	 Legal/Regulatory Noncompliance
                                 •	 Material Misstatements                                        •	Fraud
                                 •	 Legal/Regulatory Noncompliance
                                 •	Fraud




               Information                                                        Evaluations                                                Contract Audits
            Technology Audits                                       •	 Internal Control Deficiencies                                •	 Inflated Proposals
    •	 Unauthorized Access                                          •	 Operational Inefficiency                                     •	 Contract Overpayments
    •	 Inadequate Controls                                          •	 Policy Noncompliance                                         •	 Inferior Performance
    •	 Lack of Data Integrity                                       •	Fraud                                                         •	Fraud
    •	Fraud




 ...............................................................................................................................................................................................

26 | TVA OIG Semiannual Report
                                    Major Categories of Investigations
                                                  Contract Fraud                                           Theft of Government
                                             Defrauding TVA through                                        Property and Services
                                            its procurement of goods                                    Theft of TVA property and “schemes
                                          and services, fraud schemes                                   to defraud . . . designed to deprive
                                            of misrepresenting costs,                                     individuals, the people, or the
                                         overbilling of charges, product                                government of intangible rights, such
                                          substitution, and falsification                                as the right to have public officials
                                               of work certifications.                                     perform their duties honestly.”



           Environmental Crime                                                Health Care Fraud                                          Illegal Hacking Into TVA
         Violations of environmental criminal                             Intentional misrepresentation of                                   Computer Systems
       law pertaining to the Tennessee River                               health care services, expenses,                                   Accessing a TVA computer
        system and its watershed, along with                              billings, needs, or coverage that
                                                                                                                                              without authorization or
       any violations relating to TVA land and                           results in unauthorized payments
                                                                                                                                            exceeding authorized access.
                       facilities.                                                 or other benefits.




                                               Workers’                                                    Employee Misconduct
                                           Compensation Fraud                                                Misuse of TVA furnished
                                             Includes employee fraud,                                    equipment, travel voucher fraud,
                                          medical fraud, premium fraud,                                  and a multitude of miscellaneous
                                            and employer fraud, most                                            matters of abuse.
                                          often a false claim of disability
                                                to receive benefits.




       INVESTIGATIONS                                                  The investigators partner with                                   operations, and programs of the
                                                                       other investigative agencies and                                 OIG and/or TVA. Additionally,
       The Investigations team                                         organizations on special projects                                this team provides legal advice
       uncovers activity related to                                    and assignments, including                                       as needed for administrative,
       fraud, waste, and abuse in TVA                                  interagency law enforcement                                      audit, evaluation, and
       programs and operations. This                                   task forces on terrorism, the                                    investigative projects.
       team performs its investigations                                environment, and health care.
       in accordance with the Quality                                  Above are major categories of
       Standards for Investigations.                                   investigations.
       The investigators maintain
       liaisons with federal and state                                 LEGAL
       prosecutors and file reports
       with the Department of Justice                                  The Legal Counsel team
       whenever the OIG has reason                                     monitors existing and proposed
       to believe there has been a                                     legislation and regulations
       violation of federal criminal law.                              that relate to the mandate,

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 27
REPRESENTATIVE AUDITS
   TVA OIG SEMIANNUAL REPORT
Summary of
 Representati ve
 Audits
 During this semiannual period, our Audits team completed 20 audits,
 reviews, and agreed-upon procedures. This work identified almost
 $12 million in questioned costs and funds that could be put to
 better use. Below is a discussion of completed reviews in the following
 areas: (1) operational, (2) contract preaward and compliance, (3) IT, and
 (4) corporate governance, finance, and distributors of TVA power.

                                                                                                                                               Kentucky Dam



  Operational Audits                                               costs. In summary, we identified                                      necessary language to hold
                                                                   almost $4 million in questioned                                       the contractor accountable
  During this semiannual period,                                   costs and funds that could be                                         for origin demurrage costs
  Operational Audits completed                                     put to better use and several                                         until January 1, 2011, when a
  four reviews related to                                          areas for improvement, which                                          new contract was put in place,
  demurrage costs, TVA’s budget                                    would help TVA minimize these                                         resulting in unrecoverable
  process, the effectiveness of                                    costs, as detailed below.                                             demurrage costs of $784,000.
  PERs at Watts Bar Unit 2, and
  coal quality adjustments. In                                     VV $1,036,100 in origin                                          VV Due to inconsistencies
  addition, we applied agreed-                                        demurrage costs had not                                          in demurrage contract
  upon procedures to TVA’s 2011                                       been billed back to a                                            terms for coal delivered
  WP payout and performed                                             contractor as provided for in                                    to the Cumberland Fossil
  procedures to monitor the                                           the contract.                                                    Plant (CUF), TVA incurred
  external auditors’ FY 2011 audit                                                                                                     approximately $764,400 in
  of TVA’s financial statements.                                   VV TVA had not fulfilled its                                        unrecoverable costs; changes
                                                                      contractual obligation to                                        to the unload time under this
  TVA’s Demurrage Costs                                               provide a contractor with                                        same contract could save TVA
  Demurrage is the fee charged                                        applicable portions of barging                                   about $327,600 annually.
  by barge and rail companies                                         agreements, resulting in
  for delays in the loading or                                        $537,440 in unrecoverable                                     VV A clause in TVA’s contract for
  unloading of coal from company-                                     demurrage costs.                                                 delivery to the Allen Fossil
  owned assets. We reviewed                                                                                                            Plant (ALF) was not aligned
  demurrage costs incurred from                                    VV $376,667 in demurrage costs                                      with the operating conditions
  October 1, 2004, through                                            were incurred and billed back                                    at the plant, which prevented
  June 13, 2011, totaling                                             to the contractor but had not                                    TVA from using a provision to
  $14 million, to assess why                                          been paid.                                                       mitigate demurrage costs.
  demurrage costs were incurred
  and what actions, if any, TVA                                    VV TVA’s agreement with                                          VV Origin and destination
  could take to minimize these                                        a contractor lacked the                                          demurrage costs were

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 29
Coal Barge



       not tracked separately,                                     In addition, we determined that                                  design of the budget process
       which prevented TVA from                                    more effective knowledge of                                      appeared to be sufficient to
       transferring origin demurrage                               the contract demurrage terms;                                    achieve the desired results.
       costs to the supplier.                                      monitoring of the contracts;                                     We found nothing to indicate
                                                                   and communication among                                          the benchmarking process is
   VV 	Eliminating barge damage                                    terminal, barge, and rail contract                               not sufficient to allow TVA to
      charges at ALF could reduce                                  administrators, the Coal and Gas                                 benchmark itself against its
      costs by at least $145,000 per                               Services personnel responsible                                   peers. We also found nothing
      year.                                                        for demurrage payments, and                                      to indicate the budget review
                                                                   Yard Operations personnel are                                    and approval process was
   VV 	Addressing operational                                      needed.                                                          insufficient. However, we did
       challenges at ALF and CUF                                                                                                    identify opportunities where the
       could reduce demurrage                                      TVA management agreed                                            process could be strengthened
       costs at these plants.                                      with our findings and                                            and improved. Specifically, we
                                                                   recommendations and is taking                                    determined:
   As a result of the operational                                  corrective action to address
   challenge at ALF, we also noted                                 these issues.                                                    VV A formal written procedure
   that when the focus of a business                                                                                                  directing the budget process
   unit is on their individual goals                               Effectiveness of TVA’s Budget                                      did not exist.
   rather than TVA goals, the                                      Process
   overall strategic business unit’s                               We reviewed the effectiveness                                    VV 	Operating and maintenance
   budget and, ultimately, TVA’s                                   of TVA’s budget process to                                          targets were set using
   expenses can be impacted. This                                  determine the adequacy of the                                       historical data rather than
   was previously identified in OIG                                methods used in preparing,                                          being tied to fundamental
   Audit 2002-911E, Review of the                                  reviewing, and adopting the                                         business drivers.
   Coal Procurement Process.                                       FY 2011 budget. In general,
                                                                   we determined the overall

  ...............................................................................................................................................................................................

  30 | TVA OIG Semiannual Report
  VV 	A control to ensure each                                     Watts Bar, an audit was initiated                                and critical success factors.
      submitted business plan                                      to (1) assess the process                                        The WP program is based on
      aligns resources with strategic                              for remediating PERs for the                                     the principle that operational
      goals was not operating as                                   Watts Bar Unit 2 project and                                     improvements, reduced costs,
      intended.                                                    (2) determine the effectiveness                                  and improved revenues can
                                                                   of remediation stemming from                                     be achieved by applying
  VV 	The budget process                                           the PER process.                                                 management focus and offering
      addressed risk management                                                                                                     monetary incentives.
      initiatives at the organizational                            We identified improvements
      level; however, entity-wide                                  needed in the effectiveness and                                  We applied four agreed-upon
      risk management was not                                      efficiency of the PER process.                                   procedures requested solely
      directly addressed.                                          Specifically, we determined the                                  to assist management in
                                                                   process could be improved to                                     determining the validity of the
  VV 	The process for prioritizing                                 assure CAPs were closed out                                      WP payout awards for the year
      capital and operating and                                    timely by tracking those that                                    ended September 30, 2011.
      maintenance projects among                                   were not approved within
      organizations could be                                       30 calendar days of review by                                    In summary, we found:
      improved.                                                    the Project Review Committee.
                                                                   Prior to the issuance of our                                     VV 	The FY 2011 WP goals were
  VV 	The budget process relied                                    report, Watts Bar Unit 2 issued                                      properly approved. Of
      heavily on compiling data                                    a PER to address all CAP                                             the two change forms for
      from multiple spreadsheets,                                  timeliness issues from a project-                                    FY 2011, the Chief Executive
      which was manually intensive,                                wide standpoint. We also                                             Officer approved one on
      time consuming, and can be                                   identified an opportunity to                                         August 15, 2011, and one on
      error-prone.                                                 improve the trending of PERs                                         August 24, 2011. The two
                                                                   and recommended the Watts                                            change forms affected
  TVA management generally                                         Bar Unit 2 QA Manager expand                                         16 scorecards, which resulted
  agreed with our findings and                                     the trending analysis guidelines                                     in increases to payout.
  recommendations and has taken                                    to include categorizing of PERs
  corrective action to address                                     by level of importance and                                       VV 	The actual year-to-date results
  these issues.                                                    analyzing trends according to                                        for September 2011 for all
                                                                   importance as well as quantity.                                      measures on the Strategic
  Effectiveness of Remediation                                                                                                          Business Unit and Business
  of Problem Evaluation                                            Agreed-Upon Procedures                                               Unit scorecards agreed with
  Reports at Watts Bar Unit 2                                      Applied to 2011 Winning                                              the respective supporting
  When nuclear employees and                                       Performance Payouts                                                  documentation provided.
  contractors identify problems                                    TVA’s WP Incentive Plan is a
  and adverse conditions, a PER                                    performance management                                           VV 	The actual year-to-date results
  is initiated so the problem can                                  program designed to promote                                          for the two incentivized
  be captured, categorized by a                                    teamwork, focus on continued                                         TVA Corporate balanced
  project review committee, and                                    high performance, and motivate                                       scorecard measures agreed
  remediated. As a result of issues                                and reward employees for                                             with the underlying support.
  discussed during meetings at                                     achieving strategic objectives                                       Subsequent changes to the

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 31
Shawnee Fossil Plant



       Net Cash Flow actual year-                                  Coal Quality Adjustments                                         of the total dollar adjustments
       to-date result were received                                In coal contracts, there is a                                    exceeding $1 million and
       as of November 7, 2011, and                                 provision that adjustments to                                    processed during the period.
       compared to the supporting                                  payments can occur if the quality                                Additionally, we tested the
       Statement of Cash Flows.                                    of coal TVA receives differs from                                mathematical accuracy and
       We determined there would                                   the quality of coal called for in                                compliance with contract terms
       be no impact to the payout                                  the contract terms. Coal Quality                                 of 35 CQARs whose dollar
       percentage.                                                 Adjustment Reports (CQAR)                                        adjustments were less than
                                                                   are generated when the actual                                    $1 million, totaling about
  VV 	The FY 2011 WP payout                                        coal quality exceeds or does not                                 $16.3 million. In summary,
      percentages were provided                                    meet the standards specified in                                  we found that CQARs were
      by the Performance Analysis                                  the contract. The adjustments                                    calculated accurately.
      and Productivity organization                                are based upon the quality
      on October 21, 2011.                                         content of moisture, ash, and/or                                 FY 2011 Financial
      Subsequent changes to                                        sulfur as well as the coal’s British                             Statement Audit
      actual data and goals were                                   Thermal Units. We reviewed the                                   TVA contracted with the
      received through October 28,                                 CQARs to determine if they were                                  independent public accounting
      2011. We recalculated the                                    calculated in accordance with the                                firm of Ernst & Young, LLP, to
      payout percentages based                                     terms of the contracts.                                          audit TVA’s balance sheet as of
      on those changes without                                                                                                      September 30, 2011, and the
      exception. A subsequent                                      From October 2007 through                                        related statements of income,
      change to the actual year-to-                                May 2010, TVA processed                                          changes in proprietary capital,
      date result for the Net Cash                                 642 CQARs with net adjustments                                   and cash flows for the year. This
      Flow measure was received                                    totaling about $110 million.                                     also included the audit of TVA’s
      through November 7, 2011.                                    We assessed the accuracy of                                      internal controls over financial
      This change did not impact                                   18 CQARs representing about                                      reporting as of FY end. The firm
      any payout percentages.                                      $24.6 million, or 100 percent                                    also reviewed TVA’s FY 2011

  ...............................................................................................................................................................................................

  32 | TVA OIG Semiannual Report
  interim financial information filed                               $1.6 million. Highlights of our                                             (1) $631,131 in unallowable
  on Form 10-Q with the Securities                                  completed compliance audits                                                 craft labor costs and
  and Exchange Commission.                                          follow.                                                                     associated fees; (2) $99,448
  The contract required the work                                                                                                                in costs not provided for in
  be performed in accordance                                        VV 	We audited $67.9 million                                                the subcontract; (3) $7,489
  with Government Auditing                                             in costs billed to TVA by                                                in unsupported costs; and
  Standards. Our monitoring of                                         a contractor for providing                                               (4) a credit of $23,780
  this work disclosed no instances                                     modification, supplemental                                               for an invoice that was
  where the firm did not comply,                                       maintenance services, and                                                underpaid by TVA.
  in all material respects, with                                       technical support services
  Government Auditing Standards.                                       at TVA nuclear plants. Our                                          »» $279,288 was overbilled
                                                                       objective was to determine                                             for payroll tax costs on
  Contract Audits                                                      if the contractor had billed                                           nonmanual employees.
                                                                       TVA in accordance with the                                             The contractor
  Preaward Contract Reviews                                            contract terms and conditions.                                         subsequently provided a
  To support TVA management                                            In summary, we found                                                   $279,288 refund for the
  in negotiating procurement                                           TVA had been overbilled                                                overbilled payroll taxes.
  actions, we completed four                                           $1,229,401 as follows:
  preaward reviews of cost                                                                                                                 »» $225,463 was overbilled
  proposals submitted by                                                 »» $714,288 was overbilled for                                       for labor costs including
  companies proposing to provide                                            subcontractor costs for the                                       (1) $190,804 in fringe
  (1) engineering services for work                                         contractor’s sister company.                                      benefit costs for nonmanual
  at Bellefonte Unit 1, (2) indirect                                        The overbilling included                                          employees who did not
  support services at Watts Bar,
  (3) a perimeter stabilization
  project for a TVA fossil plant, and                                   Watts Bar Dam
  (4) inspection services to support
  TVA’s nuclear power program.
  Our audits identified $6.2 million
  of potential savings opportunities
  for TVA to negotiate. The
  savings opportunities were
  primarily related to overstated
  wage rates and indirect cost
  recovery rates.

  Contract Compliance Reviews
  During this semiannual period,
  we completed three compliance
  audits of contracts with
  expenditures totaling
  $384 million and identified
  potential overbillings of


............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 33
          receive fringe benefits;                                    »» The contractor overbilled                                controls for TVA PII/PHI held by
          (2) $26,349 in unsupported                                     TVA at least $295,495 for                                two different vendors; (3) security
          and duplicate labor                                            daily ash management                                     controls for one TVA facility; and
          billings; and (3) $8,310                                       costs. The overbilling                                   (4) TVA compliance with MTSA.
          for nonmanual labor costs                                      included $16,000 of
          billed at incorrect markup                                     cost billed in excess of                                 2011 FISMA Review Identified
          rates.                                                         fixed annual billing rates                               Needed Improvements
                                                                         and $279,495 of excess                                   FISMA was meant to bolster
     »» $10,362 was billed for                                           excavation costs that                                    computer and network security
        ineligible fees applied to                                       were not supported by                                    within the federal government.
        fitness for duty/badging                                         the contractor’s records.                                In accordance with FISMA and
        costs.                                                           The actual overbilling for                               guidance from the Office of
                                                                         the excess excavation                                    Management and Budget (OMB),
VV We audited the revenues paid                                          costs is most likely higher                              TVA and the OIG are required
   and the costs billed to TVA                                           because inventory records                                to report on agency-wide IT
   by a contractor for providing                                         maintained by John Sevier                                security and privacy practices
   fly ash management services                                           Fossil Plant indicated the                               annually. In our 2011 review
   at TVA’s John Sevier Fossil                                           contractor’s records were                                of TVA’s information security
   Plant from July 1, 1999,                                              not accurate.                                            program, we found that while
   through March 31, 2009.                                                                                                        TVA has made some progress
   The scope of our review                                       VV 	We audited $314.9 million                                    in implementing the IT controls
   included (1) the revenues to                                     a contractor billed to TVA                                    required by FISMA and work on
   be provided by the contractor                                    for modifications and                                         some previously recommended
   to TVA under one contract                                        supplemental maintenance                                      actions continues, additional
   and (2) $1,913,782 of costs                                      work at TVA fossil and                                        efforts are needed to strengthen
   the contractor billed under                                      hydro plants and other                                        compliance of TVA’s security
   three other contracts. In                                        TVA-controlled facilities. In                                 program with existing controls
   summary, our review of the                                       summary, we determined the                                    and address additional concerns.
   ash management payments                                          contractor’s billings to TVA                                  We identified opportunities
   and billings to TVA found                                        complied with the terms of                                    to improve all control areas
   the contractor underpaid or                                      the contract except for                                       we reviewed except for TVA’s
   overbilled TVA $378,818 as                                       $3,783 in net overbillings of                                 programs for incident response
   follows:                                                         craft labor. The contractor                                   and reporting and remote access
                                                                    agreed with our findings and                                  management. In addition,
     »» The contractor underpaid                                    plans to issue TVA a credit for                               we identified an opportunity
        TVA $83,323 for revenues                                    the overbilled costs.                                         for TVA to improve agency-
        and associated interest                                                                                                   wide security oversight. TVA
        because the contractor did                               IT Audits                                                        management agreed with our
        not pay TVA for all pyrite-                                                                                               findings and recommendations
        free bottom ash it removed                               During this semiannual period,                                   and is implementing remediation
        (and marketed) from John                                 we completed five audits in the                                  actions.
        Sevier Fossil Plant.                                     IT environment pertaining to
                                                                 (1) FISMA; (2) data protection

...............................................................................................................................................................................................

34 | TVA OIG Semiannual Report
 Data Protection Controls                                          effectively protect PII/PHI during                               program. We performed an
 Were Generally Effective                                          transmission and processing and                                  audit for one of these generating
 TVA contracts with vendors to                                     (2) complied with the security                                   facilities to assess the adequacy
 provide employment-related                                        terms included in the TVA                                        of general, logical, and
 services and, due to the nature of                                contract. However, we identified                                 physical controls. We found
 the contracted services, provides                                 control improvements for each                                    weaknesses in each of the
 these vendors with information,                                   of the vendors and TVA that, if                                  control areas tested during the
 which is classified either as PII                                 implemented, would strengthen                                    audit. Unauthorized access
 or PHI. During this reporting                                     data protection controls. TVA                                    originating from non-network
 period, we completed audits                                       management agreed with our                                       resources, such as USB memory
 of the vendor who provides                                        findings and recommendations                                     products, and leveraging the
 relocation services for TVA                                       and is implementing the                                          security weaknesses could
 employees and the vendor who                                      improvements.                                                    allow a malicious attacker to
 provides health management                                                                                                         cause unplanned outages and
 services for TVA employees                                        IT General Controls for a                                        equipment damage. TVA
 and eligible retirees and their                                   Generating Facility Could Be                                     management agreed with our
 dependents. We audited the                                        Improved                                                         findings and recommendations.
 (1) security controls for protecting                              TVA has certain generating and
 TVA data during transmission                                      transmission facilities that have                                TVA Complied with the
 and processing and (2) adequacy                                   been identified as critical assets                               Maritime Transportation
 of and compliance with TVA                                        using the criteria provided by                                   Security Act
 contract terms for security and                                   the North American Electric                                      After the terrorist attacks on
 data protection. In summary, we                                   Reliability Corporation and,                                     September 11, 2001, the
 determined both vendors (1) had                                   as such, are subject to the                                      MTSA was enacted. With the
 appropriate controls in place to                                  Critical Infrastructure Protection                               MTSA, a series of stringent
............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 35
requirements were put in place                                   with IPIA requirements that                                      key contract provisions included
for port authorities along with                                  were applicable to TVA. In                                       (1) proper reporting of electric
vessel and facility operators that                               our opinion, TVA was only                                        sales, (2) nondiscrimination in
report to the U.S. Department                                    required to comply with the                                      providing power, and (3) use of
of Homeland Security (DHS).                                      IPIA requirement to conduct a                                    electric revenue for approved
TVA has four port facilities                                     program specific risk assessment.                                purposes. The following
that receive cargos that are                                                                                                      describes the issues noted in our
regulated under the MTSA. We                                     TVA performed a risk assessment                                  audits.
performed an audit to evaluate                                   for FY 2011 and determined the
TVA’s compliance with the                                        primary program susceptible                                      VV Use of Electric System Funds
MTSA. Although we found TVA                                      to improper payments is its                                         for Nonelectric Purposes
is in compliance, we identified a                                supply chain programs. TVA                                          Both of the distributors
few minor administrative issues                                  calculated the total amount of                                      reviewed used electric
and program improvements                                         payments subject to review as                                       department funds for
that should be corrected or                                      $10,098,354,626. IPIA                                               nonelectric purposes that
implemented to improve TVA’s                                     defines significant improper                                        were inconsistent with the
operational efficiencies. TVA                                    payments as $10 million of all                                      provisions in the contracts
management agreed with our                                       program activity payments and                                       with TVA.
findings and recommendations                                     2.5 percent of program outlays.
for correcting the administrative                                TVA’s improper payments totaled                                  VV 	Misclassifications
issues and is implementing the                                   $7,446,226 and 0.074 percent                                         One of the distributors
improvements.                                                    of program outlays. As a result,                                     had misclassified certain
                                                                 TVA’s improper payments fell                                         commercial accounts
Corporate Governance                                             below IPIA threshold amounts.                                        because it had not used the
and Finance Audits                                               As of the date of its IPIA report,                                   classification criteria in the
                                                                 TVA reported it had recaptured                                       Wholesale Rate Schedule.
During this semiannual period,                                   $6,524,681 of the total improper                                     Also, we noted instances
Corporate Governance and                                         payments of $7,446,226                                               where customers were not
Finance Audits completed                                         identified for FY 2011.                                              classified properly and similar
a mandated review of TVA’s                                                                                                            customers were not classified
compliance with the IPIA and                                     Distributor Audits                                                   the same at both distributors.
two audits of TVA distributors to                                TVA sells power under the                                            The impact of these issues,
determine compliance with key                                    contracts it has established with                                    where we had adequate
contract provisions.                                             155 distributors—municipalities                                      information to estimate, was
                                                                 and cooperatives. These                                              not significant.
TVA FY 2011 Compliance                                           distributors resell TVA power to
with the Improper Payment                                        consumers across the Tennessee                                   VV Other Contract
Information Act of 2002                                          Valley. We audited the power                                        Requirements
The OIG performed an audit                                       contracts TVA had with two                                          The distributors were not
of TVA’s compliance with IPIA                                    distributors to assess compliance                                   complying with certain
for FY 2011. In summary, we                                      with the contract provisions. The                                   other contract requirements
found TVA was in compliance


...............................................................................................................................................................................................

36 | TVA OIG Semiannual Report
       including: (1) evaluation                                   We also identified three areas                                   pledging electric funds is
       of customers for a demand                                   where TVA needed to improve                                      not allowed under the power
       meter; (2) determination of                                 its oversight of distributors.                                   contract and stated it plans to
       minimum bill amounts;                                       Specifically, we found TVA did                                   recommend formal approval
       (3) entering of contract                                    not (1) prevent distributors’                                    by the TVA Board of a use
       demand values in the billing                                pledging of electric system funds                                of revenues policy. TVA also
       system; (4) cost allocations                                as guarantees for customer                                       stated (1) it plans to educate
       applied at one distributor                                  economic development loans                                       distributors on the need to follow
       for joint use of property and                               with Rural Development;                                          Rural Development guidelines,
       services not approved by TVA;                               (2) provide adequate guidance                                    including appropriate due
       and (5) contracts lacking for                               related to the due diligence                                     diligence; and (2) consideration
       customers whose demand                                      process for cooperative                                          of cooperative distributors’
       exceeded the threshold                                      distributors and, as a result,                                   capital credit allocations is
       requirement for customer                                    electric system funds were used                                  inherent in TVA’s revised retail
       contracts.                                                  to guarantee loans to customers                                  rate making and approval
                                                                   from funds provided by Rural                                     process.
 VV Internal Controls                                              Development; and (3) review
    We noted an opportunity to                                     cooperative distributors’ capital
    help a distributor improve its                                 credit allocations during TVA’s
    internal control over customer                                 retail rate setting process.
    classification and billing data.                               TVA management agreed

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 37
REPRESENTATIVE EVALUATIONS
      TVA OIG SEMIANNUAL REPORT
Summary of
  Representative
  Evaluations
   During this semiannual period, our Evaluations team conducted a
   review of TVA’s Nuclear Power Group performance trends and found
   that while TVA had taken steps to improve the culture in the Nuclear
   Power Group, it could be further enhanced by addressing some
   concerns. More information on this review is below.
                                                                                                                                          Watts Bar Nuclear Plant


  Nuclear Power Group’s                                            reliability issues. Factors                                      the adequacy of standards
  Performance Trends                                               contributing to performance                                      as compared to industry,
  This review was conducted                                        improvement included a gap-                                      (b) clarifying the expectations
  because of the importance                                        based business plan and other                                    and standards that everyone
  of TVA’s nuclear operating                                       new initiatives, including a focus                               should follow, and (c) reinforcing
  performance to its ability to meet                               on equipment reliability within                                  those standards throughout
  demand for power in the Valley.                                  the organization.                                                the organization; (2) continue
  The review included identifying                                                                                                   to promote the fleet mentality
  (1) performance trends based                                     As part of this project, we                                      throughout the organization
  on the INPO reports, (2) major                                   reviewed the following elements                                  and consider input from
  contributing factors affecting                                   of the Nuclear Power Group                                       the workforce when making
  the performance trends, and                                      culture: (1) alignment,                                          decisions that would directly
  (3) patterns of behavior that                                    (2) progress, (3) standards,                                     affect their work; (3) continue
  have an impact on culture. We                                    (4) accountability, and                                          efforts to be proactive in
  reviewed INPO index data, an                                     (5) attitude. We found                                           identifying opportunities that
  industry standard in trending                                    management had taken actions                                     would improve the organization;
  nuclear performance, safety,                                     that enhanced the alignment                                      (4) work to build relationships
  and reliability for the years 2005                               and progress of cultural                                         and trust throughout Nuclear
  through 2010. We found that                                      elements. In the areas of                                        Power Group, which would
  the Nuclear Power Group’s                                        (1) standards, (2) accountability,                               encourage the workforce
  performance with respect                                         and (3) attitude, we noted                                       to embrace new initiatives,
  to the INPO index declined                                       that while management had                                        foster a fleet mentality, and
  through 2007 but has shown                                       taken some corrective actions,                                   increase their drive to perform;
  improvement through 2010. The                                    the culture could be further                                     and (5) implement actions to
  data showed planned and forced                                   improved by addressing                                           improve the CAP to increase
  outages were major contributing                                  certain issues.                                                  the workforce’s reliance on the
  factors to the changes in INPO                                                                                                    program. TVA management
  performance. The majority of                                     We recommended the Chief                                         agreed with our findings and
  the unplanned outages appear                                     Nuclear Officer: (1) increase the                                recommendations and is
  to be a result of equipment                                      focus on standards within the                                    implementing corrective actions.
                                                                   organization by (a) evaluating
............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 39
REPRESENTATIVE INVESTIGATIONS
       TVA OIG SEMIANNUAL REPORT
Summary of
Representative
Investigati ons
This reporting period, our investigations produced four convictions,
five indictments, and one pretrial diversion. Individuals were
prosecuted in state and federal venues on various charges, such as
workers’ compensation fraud, mail and wire fraud, false statements,
and theft. Additionally, one administrative investigation identified
$97 million spent on an unsuccessful nuclear power EPU project as
well as $26.5 million in incremental fuel costs and an estimated
$373 million in marginal costs for replacement power.




 Other investigations garnered                                     identified the primary causes                                    VV TVA’s switch to AREVA fuel
 restitution, fines, and fees                                      for the continuing delays                                           during the Blended Enriched
 exceeding $19,000. We                                             and cost overruns. The OIG                                          Uranium Fuel project resulted
 opened 178 investigations and                                     concluded senior management’s                                       in the NRC permanently
 closed 202. Highlights of our                                     early decisions were the most                                       rejecting Browns Ferry’s
 investigative accomplishments                                     significant factor in the lack of                                   attempted use of non-NRC
 follow.                                                           progress in the EPU project,                                        approved methodology in
                                                                   including the following:                                            August 2002.
 Browns Ferry Nuclear Plant
 Extended Power Uprate                                             VV In 2001, senior management                                    From August 2002 through
 Project Did Not Achieve                                              directed staff to keep the                                    June 2004, Browns Ferry spent
 Intended Benefits                                                    EPU proposal within a                                         substantial financial and human
 A power uprate was                                                   certain cost, requiring the                                   resources repackaging the
 conceptualized during 1999 to                                        staff to report an artificially                               project-licensing application
 increase the maximum operating                                       optimistic scope. Evidence                                    using an NRC-approved
 level of Browns Ferry by                                             indicates this resulted in the                                methodology. From 2004
 15 percent. The project, known                                       contractor proposing use of                                   through 2010, industry
 as EPU, began during 2001 and                                        a methodology that was not                                    complexities beyond TVA’s
 was expected to be completed                                         approved by the NRC.                                          control made obtaining EPU
 in two to four years based                                                                                                         licensure significantly more
 on industry-wide experience;                                      VV In 2001, senior management                                    difficult. TVA failed to manage
 however, the Browns Ferry                                            ignored concerns TVA                                          the complications successfully,
 project remains incomplete.                                          engineering staff raised                                      though five other reactors at four
                                                                      related to the feasibility                                    non-TVA plants achieved similar
 The OIG performed extensive                                          and safety of the proposed                                    EPUs during this same time
 inquiry at the request of                                            methodology.                                                  period.
 current TVA management and
............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 41
TVA spent about $97 million                                      to completing microreadings
on direct EPU costs and                                          of the cables when he had not.
$26.5 million on incremental fuel                                (Approximately 200 such entries
costs since 2001. Additionally,                                  were submitted that were either
TVA’s marginal costs for                                         inaccurate or were provided for
replacement power ranged from                                    measurements of cables that did
$373 million to $448 million as a                                not exist.) As a result of his plea,
result of not achieving the EPU                                  the electrician was sentenced to
by the targeted dates.                                           100 hours of community service
                                                                 and two years of probation.
TVA executive management
acknowledged the cultural issues                                 “Falsifying work records is a                                       Hiawassee Dam
that may still exist and stated                                  serious federal offense that
they are committed to improving                                  could ultimately affect public
                                                                                                                                  was sentenced to 100 hours of
the culture of TVA through                                       safety. We are pleased that TVA
                                                                                                                                  community service and two years
transformation initiatives and                                   was able to uncover this matter
                                                                                                                                  of probation.
other actions including creating                                 through their system of checks
and maintaining an environment                                   and balances involving the
                                                                                                                                  Investigation Results
where all employees feel                                         startup of this nuclear facility,”
                                                                                                                                  in Sentencing for False
comfortable raising concerns to                                  said U.S. Attorney William C.
                                                                                                                                  Statements Related to Clean
management or through any of                                     (Bill) Killian, Eastern District of
                                                                                                                                  Water Action Violations
the multiple available avenues.                                  Tennessee.
                                                                                                                                  We previously reported an
                                                                                                                                  investigation of a Niota,
Two Nuclear Contractor                                           The contractor’s supervisor,
                                                                                                                                  Tennessee, sewage-treatment
Employees Sentenced for                                          also a contractor electrician,
                                                                                                                                  plant operator/employee who
Falsification of Quality                                         was charged with and pled
                                                                                                                                  pled guilty to 12 counts of a
Control Documents                                                guilty to one count of the
                                                                                                                                  72-count indictment charging
Prior to this reporting period,                                  same federal statute. His plea
                                                                                                                                  him with violating the Clean
a contractor electrician was                                     stipulated the subordinate came
                                                                                                                                  Water Act. According to the
charged in federal court with                                    to him admitting micrometer
                                                                                                                                  indictment, the employee
two felony counts of knowingly                                   measurements had not been
                                                                                                                                  falsified chlorine records and
making written, material false                                   done at the time the job
                                                                                                                                  discharge-monitoring reports
statements within the jurisdiction                               should have been completed.
                                                                                                                                  over a two-year period, affirming
of a federal agency and pled                                     The supervisor then directed
                                                                                                                                  wastewater was chlorinated
guilty to one count of the                                       the subordinate to enter
                                                                                                                                  at correct levels when, in fact,
indictment. The electrician                                      micrometer measurements
                                                                                                                                  nondisinfected wastewater was
had been assigned to inspect                                     onto quality control forms.
                                                                                                                                  discharged into the Little North
and measure cables that were                                     After the fabricated entries
                                                                                                                                  Mouse Creek (a tributary of the
to carry energy to systems                                       were complete, the supervisor
                                                                                                                                  Hiawassee River and part of
inside the containment area,                                     executed a work closure form
                                                                                                                                  the Tennessee River Watershed
including safety equipment,                                      falsely certifying the work had
                                                                                                                                  management area). The
at Watts Bar Unit 2. His plea                                    been done when he knew it had
                                                                                                                                  individual has been sentenced
agreement stipulated he attested                                 not. The supervisor recently


...............................................................................................................................................................................................

42 | TVA OIG Semiannual Report
  to six months of imprisonment,                                   environment by falsifying reports                                contractor paid $51,500 to
  six months of home detention,                                    will be vigorously prosecuted.”                                  the former president over a
  two years of probation, and                                                                                                       six-month period, including
  150 hours of community                                           Former Utility President and                                     $40,000 to a commercial debt-
  service. (We participated in this                                Two Contractors Indicted in                                      recovery firm to reduce the
  investigation as members of                                      Kickback Scheme                                                  former president’s personal debt;
  the Environmental Crimes Joint                                   Our investigation resulted in                                    and the elder contractor issued
  Task Force, Eastern District of                                  three individuals indicted in                                    checks totaling $16,015 to the
  Tennessee.)                                                      federal court in the Middle                                      former president in exchange for
                                                                   District of Tennessee, charged                                   work billed to the utility totaling
  U.S. Attorney Killian commented,                                 with a combined total of                                         $32,150 over a period of seven
  “By falsifying the reports and                                   72 counts of wire and mail fraud.                                months. (The utility requested
  claiming that he was properly                                    The indictment alleged that,                                     our investigation and cooperated
  disinfecting the waste water prior                               during a nine-month stint as                                     fully with our inquiry.)
  to its discharge, [this individual]                              president of a middle Tennessee
  potentially put others at risk for                               electric utility company, an                                     Federal Criminal Information
  coming in contact with microbial                                 individual approved no-bid                                       Charges Tennessee Resident
  organisms that could cause                                       consulting work for various                                      With Ponzi Scheme
  serious illnesses and diseases.                                  projects purportedly performed                                   A Tennessee small-business
  This prosecution and sentence                                    by a father and son who owned                                    owner who held various positions
  sends a clear message that                                       separate consulting businesses.                                  of trust in his community and
  those who would undermine our                                    The indictment alleged that                                      political party is charged in a
  federal programs intended to                                     in exchange for work totaling                                    13-count information with money
  protect human health and the                                     $156,139.39, the younger                                         laundering and bank, wire, and
                                                                                                                                    mail fraud, in the Middle District
                                                                                                                                    of Tennessee. The information
                                                                                                                                    states the individual knowingly
                                                                                                                                    wrote numerous worthless
                                                                                                                                    checks and collected more than
                                                                                                                                    $16 million from investors to pay
                                                                                                                                    other investors and to finance a
                                                                                                                                    lifestyle of gambling and debt.

                                                                                                                                    The information alleged the
                                                                                                                                    individual used his reputation
                                                                                                                                    to gain investors in three bogus
                                                                                                                                    enterprises—a farm-machinery
                                                                                                                                    supply company, a construction
                                                                                                                                    company created to build local
                                                                                                                                    greenways, and the “TVA Coal
                                                                                                                                    Ash Cleanup Investment,” which
                                                                                  Widows Creek Fossil Plant
                                                                                                                                    garnered the greatest dollar
                                                                                                                                    loss to investors. It is alleged he


............................................................................................................................................................................................

                                                                                                                                       TVA OIG Semiannual Report | 43
                                                                                                                                  failed to notify OWCP or TVA
                                                                                                                                  the former employee died, so
                                                                                                                                  her benefit checks continued to
                                                                                                                                  be mailed. Our investigation
                                                                                                                                  found the OWCP recipient’s
                                                                                                                                  adult daughter received and
                                                                                                                                  deposited OWCP checks,
                                                                                                                                  which totaled $14,939, after her
                                                                                                                                  mother’s death. The deceased’s
                                                                                                                                  brother, serving as executor of
                                                                                                                                  the estate, endorsed some of
                                                                                                                                  the checks and assisted in the
                                                                                                                                  daughter’s bank deposits. The
                                                                                                                                  U.S. Attorney’s Office declined
                                                                                                                                  prosecution in favor of available
                                                                                                                                  administrative remedies.

                                                                                                                                  We forwarded our findings to
                                                                                                                                  OWCP, which corresponded
                                                                                                                                  with the executor about the
                                                                                                                                  questioned amount. Although
                                                                                                                                  the executor claimed his actions
                                                                                                                                  were legitimate, OWCP did not
                                                                                                                                  agree and formally notified the
                                                                                                                                  executor he must repay the full
                                                                                                                                  amount.

                                                                            Browns Ferry Nuclear Plant                            TVA Reimbursed for Former
                                                                                                                                  Employee’s Abuse of Time,
                                                                                                                                  Leave, and Per Diem
deceived investors into believing                                state, and local agencies worked                                 We investigated allegations an
their funds were being used                                      this investigation.                                              employee was paid for hours
by the Tennessee Emergency                                                                                                        not worked, and we found the
Management Agency to clean                                       Deceased Office of                                               individual was absent from work
up the coal ash spill at TVA’s                                   Workers’ Compensation                                            without approved leave for four
Kingston Fossil Plant; and,                                      Program Recipient’s Checks                                       days during a 6-day vacation
toward that end, he produced                                     Fraudulently Cashed                                              and an 11-day private school
forged work orders and other                                     We were informed the family                                      excursion unrelated to the
faked documentation. The OIG                                     of a former TVA employee who                                     employee’s official TVA duties.
and Internal Revenue Service                                     received total disability benefits                               In addition, the employee
Criminal Investigation Division                                  from the Office of Workers’                                      claimed per diem and mileage
with assistance of other federal,                                Compensation Program (OWCP)                                      reimbursement from TVA for



...............................................................................................................................................................................................

44 | TVA OIG Semiannual Report
 expenses related to personal                                      company’s owner pled guilty to                                   VV 	A new, TVA-wide, fully
 travel during this period. The                                    theft of property in connection                                      detailed SPP, “Outside
 employee’s position at TVA was                                    with this activity. We reported                                      Employment,” was issued
 scheduled to end due to lack                                      our findings to TVA Supply                                           dealing solely with outside
 of work; however, as a result                                     Chain, which acted to debar the                                      employment activities of
 of our inquiry, the individual                                    management services company                                          TVA employees. This SPP is
 was issued warnings from TVA                                      and its owner from receiving                                         available to employees online.
 management and suspended                                          federal contracts through
 with pay for the remaining days                                   December 31, 2012.                                               VV 	Approvals for outside
 employed. TVA recovered                                                                                                                employment were expanded
 the cost of the unapproved                                        Investigation Leads to TVA-                                          and clearly defined to include
 leave and illegitimate travel                                     Wide Process Improvement                                             the supervisor through the
 expenses ($2,490) from the                                        We investigated an allegation                                        organization’s officer (Vice
 employee’s annual leave balance.                                  that a TVA employee was                                              President or above). After
 Additionally, the OIG requested                                   engaged in an unreported                                             forms are completed, they
 Personnel Security take the                                       personal consulting business                                         are required to be sent to and
 results of this investigation into                                that conflicted with his TVA                                         maintained by TVA’s Ethics
 account should the individual                                     duties. The conflict of interest                                     Program staff, which will serve
 seek future TVA employment.                                       was not substantiated because                                        as the central repository for
 (The U.S. Attorney’s Office                                       he had reported his outside                                          the forms.
  in the Eastern District of                                       employment according to a
 Arkansas declined prosecution                                     subsection of TVA’s Standard                                     VV 	Employees must now submit
 in this case.)                                                    Programs and Processes (SPP)                                        a new request at least once
                                                                   entitled “Business Ethics,” and                                     every three years or when
 Management Services                                               had completed TVA’s “Request                                        necessitated by a change
 Company and Owner                                                 for Approval of Outside                                             of duties or other factors.
 Debarred Through 2012                                             Employment or Consulting                                            The Ethics Program staff will
 A corporation directly                                            Work,” which was signed by his                                      request updated forms every
 contracting with TVA engaged                                      immediate supervisor.                                               three years.
 a subcontractor company to
 provide management services,                                      In discussing the investigation                                  VV 	The outside employment
 including distributing TVA                                        with the Vice President of the                                       form was revised to include
 funds over various divisions of                                   employee’s organization, a                                           a description of any
 the corporation. During the                                       question arose about the level of                                    relationships that the outside
 course of our investigation                                       guidance in TVA’s Business Ethics                                    employer or organization
 of the management services                                        SPP and approvals required                                           has with TVA, including any
 subcontractor, we discovered                                      on the request form. The Vice                                        secondary relationships (for
 the corporation had audited                                       President had a PER issued                                           example, an outside employer
 the subcontractor and found                                       to examine TVA’s process for                                         who has a relationship with
 its owner had taken more than                                     approval of outside employment.                                      a contractor doing business
 $137,000 from its account,                                        As a result, the following                                           with TVA).
 which was funded by deposits                                      changes were made.
 from TVA. The subcontractor


............................................................................................................................................................................................

                                                                                                                                       TVA OIG Semiannual Report | 45
legislation & Regulations
      TVA OIG SEMIANNUAL REPORT
 Legislation&			
    regulations
 In fulfilling its responsibilities under the IG Act of 1978, as amended,
 the OIG follows and reviews existing and proposed legislation and
 regulations that relate to the mandate, operations, and programs
 of TVA. Although TVA’s Office of the General Counsel reviews
 proposed or enacted legislation that could affect TVA activities, the
 OIG independently follows and reviews proposed legislation that
 affects the OIG and/or relates to economy and efficiency or waste,
 fraud, and abuse of TVA programs or operations.


                                                                                                                                         John Sevier Dam




 BILLS INTRODUCED                                                  sector entities to: assess                                       the current criteria in FISMA
 SINCE THE PREVIOUS                                                cybersecurity risks; develop risk-                               for conducting IG evaluations
 SEMIANNUAL PERIOD                                                 based cybersecurity performance                                  and change the requirement
                                                                   requirements; implement cyber                                    in the bill for IGs to include
 The TVA OIG has been tracking                                     response and restoration plans;                                  a “conclusion” regarding
 the following major pieces of                                     and more. The bill defines                                       the effectiveness of agency
 legislation:                                                      “critical infrastructure;” amends                                information security practices
                                                                   FISMA to revise information                                      to require an “assessment”
 S 2105 – CYBERSECURITY                                            security requirements for                                        thereof; (2) maintain the current
 ACT OF 2012                                                       federal agencies; and amends                                     FISMA provision that allows
 Senator Lieberman, I-CT,                                          the Homeland Security                                            evaluations to be based upon
 introduced this bill on                                           Act of 2002 to consolidate                                       audits, evaluations, or reports,
 February 14, 2012, which has                                      existing DHS resources for                                       rather than restricting the IGs to
 had hearings held before the                                      cybersecurity within a National                                  perform one evaluation for the
 Committee on Homeland                                             Center for Cybersecurity and                                     purpose of this bill; (3) include a
 Security and Government                                           Communications (NCCC), which                                     statutory Freedom of Information
 Affairs. Among other things,                                      the bill establishes (as does                                    Act exemption for information
 the bill sets requirements for                                    Senator Lieberman’s bill: S 413 –                                and information systems; and
 securing critical infrastructure                                  Cybersecurity Act of 2011, listed                                (4) require the U.S. Government
 as well as directs the Secretary                                  on page 49).                                                     Accountability Office instead
 of DHS, in consultation with                                                                                                       of CIGIE to establish specific
 owners and operators of critical                                  The Council of the Inspectors                                    technical guidance for
 infrastructure, the Critical                                      General on Integrity and                                         information security program
 Infrastructure Partnership                                        Efficiency (CIGIE) has                                           evaluations.
 Advisory Council, and other                                       recommended the following
 federal agencies and private                                      changes to the bill: (1) maintain

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 47
S 2151 – STRENGTHENING                                           The bill, among other things,                                    with preventing, investigating, or
AND ENHANCING                                                    (1) authorizes private entities                                  mitigating threats to information
CYBERSECURITY BY                                                 to employ countermeasures                                        security; (3) requires federal
RESEARCH, EDUCATION,                                             and use cybersecurity systems                                    contractors of electronic
INFORMATION, AND                                                 to obtain, identify, or possess                                  communication, remote
TECHNOLOGY ACT OF 2012                                           cyber threat information on its                                  computing, or cybersecurity
(SECURE IT)                                                      own networks or the networks of                                  services to immediately provide
Senator McCain, R-AZ,                                            another entity with such entity’s                                the contracting agency with
introduced this bill,                                            authorization; (2) allows private                                any cyber threat information
co-sponsored by six additional                                   entities, nonfederal government                                  directly related to the contract
senators, on February 29,                                        agencies, and state, tribal, and                                 and permits contractors to also
2012, and it has since had                                       local governments to voluntarily                                 provide such information to a
hearings held before the                                         disclose cyber threat information                                cybersecurity center; (4) directs
Committee on Commerce,                                           to designated cybersecurity                                      federal agencies receiving such
Science, and Transportation.                                     centers or to each other to assist                               contractor-provided information
                                                                                                                                  to disclose it immediately
                                                                                                                                  to a cybersecurity center;
                                                                                                                                  (5) permits cyber threat
                                                                                                                                  information provided to a
                                                                                                                                  cybersecurity center to be
                                                                                                                                  disclosed to, or used by,
                                                                                                                                  the federal government for
                                                                                                                                  a cybersecurity or national
                                                                                                                                  security purpose or to prevent,
                                                                                                                                  investigate, or prosecute
                                                                                                                                  various criminal offenses for
                                                                                                                                  which law enforcement officials
                                                                                                                                  are authorized, under existing
                                                                                                                                  law, to seek a court order
                                                                                                                                  authorizing an interception
                                                                                                                                  of wire, oral, or electronic
                                                                                                                                  communications; (6) prohibits
                                                                                                                                  federal, state, tribal, and local
                                                                                                                                  agencies from directly using
                                                                                                                                  such information to regulate
                                                                                                                                  an entity’s lawful activities and
                                                                                                                                  sets forth conditions with regard
                                                                                                                                  to information provided to a
                                                                                                                                  cybersecurity center; and
                                                                                                                                  (7) provides legal protections to
                                                                                                                                  entities engaged in authorized
                                                                                                                                  cybersecurity activities and
                                                                                                                                  directs the Director of National
                                                                                                                                  Intelligence and Secretary of
...............................................................................................................................................................................................

48 | TVA OIG Semiannual Report
 Defense to develop policies and
 procedures.

 HR 4263 – STRENGTHENING
 AND ENHANCING
 CYBERSECURITY BY USING
 RESEARCH, EDUCATION,
 INFORMATION, AND
 TECHNOLOGY ACT OF 2012
 (SECURE IT)
 Congresswoman Mary
 Bono Mack (R-CA) and
 Congresswoman Marsha
 Blackburn (R-TN), introduced
 a bill on March 27, 2012, that
 mirrors S 2151. Notably, the
                                                                   information sharing and                                          S 300 – GOVERNMENT
 Bono Mack-Blackburn bill also
                                                                   availability of information to                                   CHARGE CARD ABUSE
 removes the legal roadblocks
                                                                   the public by reducing and                                       PREVENTION ACT OF 2011
 for companies to take vital
                                                                   minimizing information control                                   This bill requires (1) agencies
 necessary steps to protect their
                                                                   designations. The bill further                                   to increase regulations and
 networks from cyber assaults and
                                                                   requires the IG of each federal                                  enforcement to safeguard
 strengthens criminal penalties
                                                                   agency to randomly audit                                         government purchase card
 for hacking into servers. The
                                                                   unclassified information with                                    expenditures and (2) agency IGs
 bill has been referred to the
                                                                   information control designations.                                to report to OMB semiannually
 Committee on Science, Space,
                                                                                                                                    on violations of this Act if the
 and Technology and in addition
                                                                   S 241 – NON-FEDERAL                                              agency incurs more than
 to the Committees on Oversight
                                                                   EMPLOYEE                                                         $10 million in purchase card or
 and Government Reform, the
                                                                   WHISTLEBLOWER                                                    convenience check spending and
 Judiciary, Armed Services, and
                                                                   PROTECTION ACT OF 2011                                           to conduct periodic assessments
 Intelligence (Permanent Select).
                                                                   The bill replaces provisions                                     of purchase card or convenience
                                                                   prohibiting reprisals against                                    check programs.
 BILLS LISTED IN THE
 PREVIOUS SEMIANNUAL                                               whistleblower employees of
                                                                   government contractors for                                       S 413 – CYBERSECURITY
 The following bills have been                                     disclosing to a federal official                                 AND INTERNET FREEDOM
 described in the previous                                         information relating to gross                                    ACT OF 2011
 semiannual report and their                                       mismanagement, waste, danger                                     Among other things, the bill
 statuses have not changed.                                        to safety, abuse of authority, or                                prohibits the government
                                                                   violation of law related to an                                   from turning off the Internet,
 HR 209 – REDUCING                                                 agency contract, subcontract, or                                 establishes an Office of
 INFORMATION CONTROL                                               grant. The bill also provides the                                Cyberspace Policy, establishes
 DESIGNATIONS ACT                                                  complainant access to the IG’s                                   NCCC within DHS, establishes
 The purpose of the bill is to                                     investigative file.                                              United States Computer
 increase governmentwide                                                                                                            Emergency Readiness Team

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 49
                                                                                                                                  S 743 – WHISTLEBLOWER
                                                                                                                                  PROTECTION
                                                                                                                                  ENHANCEMENT ACT OF
                                                                                                                                  2011
                                                                                                                                  This bill expands the types of
                                                                                                                                  disclosures that are protected
                                                                                                                                  whistleblower disclosures and
                                                                                                                                  amends the IG Act of 1978 to
                                                                                                                                  allow federal agency employees
                                                                                                                                  to report to the IG information
                                                                                                                                  of an urgent concern to
                                                                                                                                  Congress and to provide for the
                                                                                                                                  appointment of a Whistleblower
                                                                                                                                  Protection Ombudsman in
                                                                                                                                  the OIG to educate agency
                                                                                                                                  personnel about whistleblower
                                                                                                                                  rights.
                                                                                               TVA Electric Car
                                                                                                                                  HR 1875 – BUILDING OUR
                                                                                                                                  CLEAN ENERGY FUTURE
within the NCCC, and                                             auditor, as determined by the IG                                 NOW ACT
establishes a Federal Information                                of the agency.                                                   This bill provides grants for
Security Taskforce, which shall be                                                                                                the use of clean fuel in public
the principal interagency forum                                  S 717 – PUBLIC ONLINE                                            transportation vehicles, provides
for collaboration regarding best                                 INFORMATION ACT OF 2011                                          federal employees with a fringe
practices for agency information                                 HR 1349 – PUBLIC ONLINE                                          benefit for using public transit,
security. The bill requires IGs                                  INFORMATION ACT OF 2011                                          and requires public utilities to
to assess the adequacy and                                       These companion bills establish                                  develop a plan to support plug-
effectiveness of the information                                 a Public Online Information                                      in hybrid and electric vehicles.
security program.                                                Advisory Committee to
                                                                 coordinate the government’s                                      S 1030 – FREEDOM FROM
HR 1136 – EXECUTIVE                                              efforts to make information                                      RESTRICTIVE EXCESSION
CYBERSPACE                                                       from all three branches of                                       EXECUTIVE DEMANDS AND
COORDINATION ACT OF                                              government available on the                                      ONEROUS MANDATES ACT
2010                                                             Internet and to issue and update                                 OF 2011
This bill establishes a National                                 nonbinding guidelines on how                                     This bill requires federal agencies
Office of Cyberspace with                                        the government should make                                       to periodically review agency
oversight responsibilities for                                   public information available.                                    rules that have a significant
information security policies                                    The bills also provide that the                                  adverse economic impact on
and practices. The annual audit                                  IG of each agency will conduct                                   small entities (small businesses,
required by this bill shall be                                   periodic reviews regarding                                       organizations, and governmental
performed by the agency’s IG                                     agency compliance with Internet                                  jurisdictions). Compliance
or by an independent external                                    publication requirements.                                        guidance provided to these small

...............................................................................................................................................................................................

50 | TVA OIG Semiannual Report
 entities is also reviewed. Such
 reviews are to be conducted
 every nine years. Compliance
 will be reviewed by the agency’s
 IG, who will report uncorrected
 deficiencies to Congress.

 S 1212 – GEOLOCATIONAL
 PRIVACY AND
 SURVEILLANCE ACT
 This bill generally prohibits
 intercepting the geolocation
 information of another person.
 Examples of exceptions include
 emergency situations, prior
 consent, and by warrant.
 Penalties for violations are
 included and persons whose
                                                                   S 1338 – REGULATOR                                               identify federal spending that is
 geolocation information is
                                                                   CAPTURE ACT OF 2011                                              highly susceptible to improper
 improperly obtained or used may
                                                                   This bill creates the Office of                                  payments. Under this bill, each
 recover civil damages.
                                                                   Regulatory Integrity within                                      agency will report any high-
                                                                   the OMB to be headed by an                                       dollar, improper payments to the
 S 1246 – ACT TO REDUCE                                                                                                             agency’s IG on a quarterly basis.
                                                                   Administrator. The Administrator
 THE NUMBER OF NON-
                                                                   is tasked with investigating
 ESSENTIAL NEW VEHICLES                                                                                                             HR 2340 – TRANSPARENCY
                                                                   the influence of concentrated
 PURCHASED AND                                                                                                                      IN GOVERNMENT ACT
                                                                   economic interests on agencies,
 LEASED BY THE FEDERAL                                                                                                              The primary purpose of the
                                                                   which results in actions or
 GOVERNMENT                                                                                                                         bill is to create more
                                                                   regulations that do not advance
 This bill requires agencies to
                                                                   the goals of the agency or causes                                transparency in Congress.
 determine the number and
                                                                   the public to lose confidence                                    However, Section V amends
 cost of nontactical and civilian
                                                                   in the agency regulatory                                         the Federal Funding and
 vehicles purchased or leased in
                                                                   process. The Administrator may                                   Accountability Act of 2006
 2010. Agency budgets for 2012
                                                                   coordinate investigative efforts                                 by requiring IGs to periodically
 will then be reduced by
                                                                   with the agency IG.                                              audit the data provided
 20 percent of the total 2010
                                                                                                                                    to the OMB Web site,
 cost for such vehicles. The
                                                                   S 1409 – IMPROPER                                                www.usaspending.gov, which
 money saved will be returned
                                                                   PAYMENT ELIMINATION                                              provides information about
 to the Treasury. The bill
                                                                   AND RECOVERY ACT                                                 entities receiving federal funds.
 also requires agency IGs to
                                                                   This bill attempts to identify,
 review the agency’s system for
                                                                   reduce, and recover payments
 monitoring the nonofficial use of
                                                                   made by the federal government
 government vehicles. Once the
                                                                   in error or because of fraud. The
 review is complete, the results
                                                                   bill tasks the Director of OMB to
 will be reported to Congress.

............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 51
  appendices
TVA OIG SEMIANNUAL REPORT
                                                                                                                                                    Appendix 1


            INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

               REPORTING                                REQUIREMENT                                                                                               PAGE
               Section 4(a)(2)                          Review of Legislation and Regulations                                                                         47-51

               Section 5(a)(1)                          Significant Problems, Abuses, and Deficiencies                                                                29-45

                                                        Recommendations With Respect to Significant Problems, Abuses,
               Section 5(a)(2)                                                                                                                                        29-45
                                                        and Deficiencies

                                                        Recommendations Described in Previous Semiannual Reports in
               Section 5(a)(3)                                                                                                                                    Appendix 4
                                                        Which Corrective Action Has Not Been Completed

                                                        Matters Referred to Prosecutive Authorities and the Prosecutions
               Section 5(a)(4)                                                                                                                                    Appendix 5
                                                        and Convictions That Have Resulted
               Section 5(a)(5)
                                                        Summary of Instances Where Information Was Refused                                                            None
               and 6(b)(2)

               Section 5(a)(6)                          Listing of Audit and Evaluation Reports                                                                   Appendix 2


               Section 5(a)(7)                          Summary of Particularly Significant Reports                                                                   29-45

                                                        Status of Management Decisions for Audit and Evaluation Reports
               Section 5(a)(8)                                                                                                                                    Appendix 3
                                                        Containing Questioned Costs

                                                        Status of Management Decisions for Audit and Evaluation Reports
               Section 5(a)(9)                                                                                                                                    Appendix 3
                                                        Containing Recommendations That Funds Be Put to Better Use

                                                        Summary of Audit and Evaluation Reports Issued Prior to the
               Section 5(a)(10)                         Beginning of the Reporting Period for Which No Management                                                     None
                                                        Decision Has Been Made

               Section 5(a)(11)                         Significant Revised Management Decisions                                                                      None

                                                        Significant Management Decisions With Which the Inspector General
               Section 5(a)(12)                                                                                                                                       None
                                                        Disagreed

                                                        Information under Federal Financial Management Improvement Act of
               Section 5(a)(13)                                                                                                                                       None
                                                        1996

                                                        Appendix of results of any peer review conducted by another Office of the
               Section 5(a)(14)                         Inspector General during the reporting period and, if none, a statement of                                Appendix 8
                                                        the date of the last peer review

                                                        List of outstanding recommendations from any peer review conducted by
               Section 5(a)(15)                         another Office of the Inspector General, including a statement describing                                      None
                                                        the status of the implementation and why implementation is not complete

                                                        List of peer reviews conducted of another Office of the Inspector
                                                        General during the reporting period, including a list of any outstanding
               Section 5(a)(16)                                                                                                                                        None
                                                        recommendations made from any previous peer review that remain
                                                        outstanding or have not been implemented




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 53
       Appendix 2

OIG AUDIT REPORTS • Issued During the Six-Month Period Ended MARCH 31, 2012

  Report Number                                                                                                                 Questioned       Unsupported           Funds Put To
                            Title
  and Date                                                                                                                           Costs             Costs             Better Use

  CONTRACT AUDITS
  2009-12389                Appalachian Products, Inc. – Ash Management at John Sevier
                                                                                                                                  $378,818           $279,495                       $0
  10/04/2011                Fossil Plant
  2010-13281
                            G-UB-MK Constructors                                                                                     $3,783              $3,783                     $0
  12/08/2011
  2011-14222-1
                            Proposal to Provide Indirect Support Services                                                                  $0                 $0            $94,000
  12/12/2011
  2011-14305
                            Review of Cost Recovery Rates for Engineering Services                                                         $0                 $0        $3,076,000
  12/15/2011
  2009-12779
                            Williams Plant Services, LLC                                                                        $1,229,401               $7,489                     $0
  01/12/2012
  2011-14155
                            Review Request for Rate Increases for Contract Extension                                                       $0                 $0           $859,000
  02/08/2012
  2011-14360
                            Review of Overhead Rate for Contract Extension                                                                 $0                 $0        $2,200,000
  02/29/2012
  CORPORATE GOVERNANCE AND FINANCE AUDITS
  2011-14340
                            Review of TVA’s Compliance with IPIA FY 2011                                                                   $0                 $0                    $0
  03/13/2012
  2010-13285
                            Distributor Audit of Volunteer Energy Cooperative                                                              $0                 $0                    $0
  11/16/2011
  2010-13659
                            Distributor Audit of Meriwether Lewis Electric Cooperative                                                     $0                 $0                    $0
  03/22/2012
  OPERATIONAL AUDITS
  2010-13295
                            Effectiveness of TVA’s Budget Process                                                                          $0                 $0                    $0
  11/15/2011
  2010-13656
                            Review of TVA Demurrage Costs                                                                       $3,498,207                    $0           $472,600
  12/20/2011
  2010-13264                Review of the Effectiveness of the Remediation
                                                                                                                                           $0                 $0                    $0
  01/10/2012                of Problem Evaluation Reports at Watts Bar Unit 2
  2010-13662
                            Review of Coal Quality Adjustment Reports                                                                      $0                 $0                    $0
  02/23/2012
  2011-14236                Agreed-Upon Procedures for TVA Fiscal Year 2011 Performance
                                                                                                                                           $0                 $0                    $0
  11/10/2011                Measures
  INFORMATION TECHNOLOGY AUDITS
  2011-13747                Controls for Handling TVA Private Information – ActiveHealth
                                                                                                                                           $0                 $0                    $0
  11/04/2011                Management
  2011-13760
                            Federal Information Security Management Act Evaluation                                                         $0                 $0                    $0
  11/17/2011
  2011-13721
                            Controls for Handling TVA Private Information – Cartus Corporation                                             $0                 $0                    $0
  11/29/2011
  2010-13671
                            TVA Generating Plant – Security Assessment                                                                     $0                 $0                    $0
  12/15/2011
  2011-14066
                            TVA Maritime Transportation Security Act Compliance                                                            $0                 $0                    $0
  01/20/2012
  TOTAL                                                                                                                      $5,110,2091           $290,767           $6,701,600
  AUDITS (20)
   1
       Questioned costs include $2,085,440 for unreasonable or unnecessary expenditures not recoverable.

...............................................................................................................................................................................................

54 | TVA OIG Semiannual Report
                                                                                                                                                    Appendix 2

 OIG EVALUATION REPORTS • Issued During the Six-Month Period Ended MARCH 31, 2012

    Report Number                                                                                                                 Questioned        Unsupported           Funds Put To
                                    Title
    and Date                                                                                                                           Costs              Costs             Better Use
    2010-13233
                                    Review of Nuclear Power Group’s Performance Trends                                                       $0                 $0                    $0
    12/08/2011

    Total
                                                                                                                                             $0                 $0                   $0
    EVALUATIONS (1)

     Note: A summary of, or link to, the full report may be found on the OIG’s Web site at www.oig.tva.gov.




   Allen Fossil Plant




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 55
        Appendix 3

TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                                      Number                     Questioned                 Unsupported
    Audit Reports                                                                                   of Reports                        Costs                       Costs

    A. For which no management decision has been made by
                                                                                                                   1                  $640,420                      $640,420
       the commencement of the period


    B. Which were issued during the reporting period                                                               4                $5,110,209                      $290,767

    Subtotal (A+B)                                                                                                 5                $5,750,629                      $931,187

    C. For which a management decision was made during the                                                             1
                                                                                                                   5                $5,750,629                      $931,187
       reporting period

      1. Dollar value of disallowed costs                                                                          5                $5,695,122                      $931,187

      2. Dollar value of costs not disallowed                                                                      1                    $55,507                              $0

    D. For which no management decision has been made by the
                                                                                                                   0                            $0                           $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                                                   0                            $0                           $0
       months of issuance

1
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and
    C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • EVALUATIONS

                                                                                                      Number                     Questioned                 Unsupported
    Evaluation Reports                                                                              of Reports                        Costs                       Costs

    A. For which no management decision has been made by the
                                                                                                                   0                            $0                           $0
       commencement of the period


    B. Which were issued during the reporting period                                                               0                            $0                           $0

    Subtotal (A+B)                                                                                                 0                            $0                           $0

    C. For which a management decision was made during the
                                                                                                                   0                            $0                           $0
       reporting period

      1. Dollar value of disallowed costs                                                                          0                            $0                           $0

      2. Dollar value of costs not disallowed                                                                      0                            $0                           $0

    D. For which no management decision has been made by the
                                                                                                                   0                            $0                           $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                                                   0                            $0                           $0
       months of issuance


...............................................................................................................................................................................................

56 | TVA OIG Semiannual Report
                                                                                                                                                    Appendix 3

TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                                                                                 Number              Funds To Be Put
    Audit Reports                                                                                                                              of Reports              To Better Use

    A. For which no management decision has been made by the commencement of the period                                                                      2                $3,782,900

    B. Which were issued during the reporting period                                                                                                         5                $6,701,600

    Subtotal (A+B)                                                                                                                                           7               $10,484,500

                                                                                                                                                                 1
    C. For which a management decision was made during the reporting period                                                                                  6                $9,625,500

      1. Dollar value of recommendations agreed to by management                                                                                             6                $9,558,234

      2. Dollar value of recommendations not agreed to by management                                                                                         1                     $67,266

    D. For which no management decision has been made by the end of the reporting period                                                                     1                   $859,000

    E. For which no management decision was made within six months of issuance                                                                               0                             $0

1
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2) when 	
    the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE II • FUNDS TO BE PUT TO BETTER USE • EVALUATIONS

                                                                                                                                                 Number              Funds To Be Put
    Evaluation Reports                                                                                                                         of Reports              To Better Use

    A. For which no management decision has been made by the commencement of the period                                                                      0                             $0

    B. Which were issued during the reporting period                                                                                                         0                             $0

    Subtotal (A+B)                                                                                                                                           0                             $0

    C. For which a management decision was made during the reporting period                                                                                  0                             $0

      1. Dollar value of recommendations agreed to by management                                                                                             0                             $0

      2. Dollar value of recommendations not agreed to by management                                                                                         0                             $0

    D. For which no management decision has been made by the end of the reporting period                                                                     0                             $0

    E. For which no management decision was made within six months of issuance                                                                               0                             $0




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 57
      Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING

 As of the end of the semiannual period, final corrective actions associated with seven audits and four evaluations were not
 completed within twelve months of the final report date. Presented below for each audit and evaluation are the report
 number, date, and a brief description of the open recommendations as well as the date management expects to complete
 final action.

  Audit Report
                  Report Title and Recommendation(s) for Which Final Action is Not Complete
  Number and Date


                               Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
  2007-11216
  06/02/2008                   TVA agreed to implement protective measures for applications and reports containing social security
                               numbers, such as restricting access and logging downloads. Management expects final action to be
                               completed by May 31, 2013.


                               Sequoyah Nuclear Plant – Cyber Security Assessment
  2007-11388                   TVA agreed to conduct risk assessments on the use of identified third-party applications and evaluate
  08/21/2008                   the elimination of clear text protocols where technically feasible. Management expects final action to be
                               completed by August 30, 2012.



                               Hydroelectric Plant Automation – General, Physical, and Security Controls Review
  2008-12127
  09/24/2009                   TVA agreed to implement the new access control system at all sites and further restrict access to key
                               components. Management expects final action to be completed by June 1, 2013.


                               Use and Protection of Personally Identifiable Information
  2009-12650                   TVA agreed to improve the privacy program by (1) defining security officer responsibilities and (2) updating
  05/19/2010                   the privacy assessment process. Management expects final action to be completed by September 30,
                               2012.


                               Effectiveness of Cyber Security Monitoring Follow-up Review
  2010-13033
  10/12/2010                   TVA agreed to perform a risk assessment of TVA’s intrusion detection/prevention system device
                               implementation. Management expects final action to be completed by November 30, 2012.


                               Federal Information Security Management Act Evaluation
  2010-13446
  12/02/2010                   TVA agreed to continue the redesign of the certification and accreditation process and complete security
                               configuration baselines. Management expects final action to be completed by August 30, 2012.

                               Follow-up Review of TVA’s Role as a Rate Regulator – Use of Electric Revenues for
                               Nonelectric Purposes
                               TVA agreed to (1) determine when distributor reserves become excessive and should be returned to the
  2009-12699                   ratepayers in the form of rate reductions and (2) review and ensure all distributors using electric system
  12/09/2010                   revenues for nonelectric system purposes have appropriate protections in place. TVA distributor staff will
                               look for electric system use of revenue for nonelectric system purposes when they perform their annual
                               review of distributor financial information. As part of this review, any unapproved use of electric system
                               revenues for nonelectric system purposes will be evaluated for further action. Management expects final
                               action to be completed by September 30, 2012.




...............................................................................................................................................................................................

58 | TVA OIG Semiannual Report
                                                                                                                                                    Appendix 4

     AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


        Evaluation Report
                                     Report Title and Recommendation(s) for Which Final Action is Not Complete
        Number and Date


                                     Review of Physical and Environmental Controls for the Chattanooga Data Center

        2005-518I                    TVA agreed to replace the Chattanooga office complex telephone system with a system operating
                                     on the Internet Protocol to eliminate three specific failure modes, which could hamper or eliminate
        08/31/2005
                                     TVA’s communication ability. Implementation of the new communication system has been delayed by
                                     management due to what is considered higher priority projects. Management is targeting final action to be
                                     completed by December 31, 2012.

                                     Distributor Review of Monroe County Electric Power Authority
        2008-12007
        05/13/2009                   TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures; and
                                     (2) recommend to the Board that additional financial metrics, including when cash reserves become
                                     excessive, be implemented in the rate setting process. Management expects final action to be completed
                                     by April 30, 2012.

                                     Distributor Review of Lewisburg Electric System
        2008-12040
                                     TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures; and
        05/13/2009                   (2) recommend to the Board that additional financial metrics, including when cash reserves become
                                     excessive, be implemented in the rate setting process. Management expects final action to be completed
                                     by April 30, 2012.


                                     Review of TVA Records Retention
        2008-11829
        06/02/2010                   TVA agreed to continue with current plans to replace the Electronic Document Management System.
                                     Management expects final action to be completed by December 31, 2013.




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 59
       Appendix 5
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1


   Referrals
   	            Subjects Referred to U.S. Attorneys                                                                                                 14

   	            Subjects Referred to State/Local Authorities                                                                                          1

   Results
   	            Subject Indicted                                                                                                                      5

   	            Subjects Convicted                                                                                                                    4

   	            Pretrial Diversion                                                                                                                    1

   	            Referrals Declined                                                                                                                    8

   1
       These numbers include task force activities and joint investigations with other agencies.




...............................................................................................................................................................................................

60 | TVA OIG Semiannual Report
                                                                                                                                                      Appendix 6
                     HIGHLIGHTS – STATISTICS
                                                                                                MAR 31,            SEPT 30,           MAR 31,            SEPT 30,        MAR 31,
                                                                                                  2012                2011              2011                2010           2010
                      AUDITS
                      AUDIT STATISTICS
                      Carried Forward                                                                 34                 46                 40                 60              44
                      Started                                                                         23                 16                 29                 28              46
                      Canceled                                                                        (2)                (2)                (3)                (7)             (4)
                      Completed                                                                      (20)               (26)               (20)               (41)           (26)
                      In Progress at End of Reporting Period                                          35                 34                 46                 40              60


                      AUDIT RESULTS (Thousands)
                      Questioned Costs                                                            $5,110             $1,327             $4,846             $2,713           $980
                      Disallowed by TVA                                                            5,695                655              1,303              1,879          2,255
                      Recovered by TVA                                                             1,143 1              326                763              1,921 2        2,655 3


                      Funds To Be Put To Better Use                                               $6,702             $4,945            $24,963            $13,696         $9,703
                      Agreed to by TVA                                                             9,558             20,005              7,450                149           8,853
                                                                                                            4                                     5
                      Realized by TVA                                                              2,441              1,162             12,750              2,091            480


                      OTHER AUDIT-RELATED PROJECTS
                      Completed                                                                        9                 19                 13                 27              10
                      Cost Savings Identified/Realized (Thousands)                                    $0                 $0                 $0                 $0              $0


                      EVALUATIONS
                      Completed                                                                        1                  8                  3                  9               2
                      Cost Savings Identified/Realized (Thousands)                                    $0                 $0                 $0                 $0              $0


                      INVESTIGATIONS6
                      INVESTIGATION CASELOAD
                      Opened                                                                         178                190                190                199            168
                      Closed                                                                         202                228                161                221            198
                      In Progress at End of Reporting Period                                         146                163                199                167            189


                      INVESTIGATIVE RESULTS (Thousands)
                      Recoveries                                                                   $17.5                 $8             $2,144              $36.2           $41.8
                      Savings                                                                          0                  0              2,515              4,028               0
                      Fines/Penalties                                                                 1.7                 1                453                  87            5.9
                      Other Monetary Loss                                                      $496,500              $9,693 8


                      MANAGEMENT ACTIONS
                      Disciplinary Actions Taken (No. of Subjects)                                    19                 23                  7                 14               7

                      Counseling/Management Techniques Employed (No. of Cases)                        24                 18                 24                 31              25
                      Debarment                                                                        2                  0                  19


                      PROSECUTIVE ACTIVITIES (No. of Subjects)
                      Referred to U.S. Attorneys                                                      14                 22                 22                 51              16
                      Referred to State/Local Authorities                              	               1                  3                  1                  2               2
                      Indicted                                                                         5                  6                  1                  7               4
                      Convicted                                                                        4                  5                  1                  8               3
                      Pretrial Diversion                                                               1                  1                  0                  1               2


                 	    1
                        Includes $198,352 recovered in excess of amounts decided by management.
                 	    2
                        Adjusted to correct amount reported in prior semiannual reports.
                 	    3
                        Ibid.
                 	    4
                        Includes $18,474 savings realized in excess of amounts decided by management.
                 	    5
                        Includes $304,036 savings realized in excess of amounts decided by management.
             	        6
                        These numbers include task force activities and joint investigations with other agencies.
                 	    7
                        Adjusted to correct amount reported in prior semiannual reports.
                 	    8
                        Category added in semiannual period ended September 30, 2011.
                 	    9
                        Category added in semiannual period ended March 31, 2011.
............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 61
Sequoyah Nuclear Plant




          Appendix 7

     Government Contractor Audit Findings
     The National Defense Authorization Act for FY 2008, P.L. 110-181, requires each IG appointed under the
     IG Act of 1978 to submit an appendix on final, completed contract audit reports issued to the contracting
     activity that contain significant audit findings—unsupported, questioned, or disallowed costs in an amount in
     excess of $10 million or other significant findings—as part of the Semiannual Report to Congress. During this
     reporting period, the OIG issued no contract review reports under this requirement.




    ...............................................................................................................................................................................................

    62 | TVA OIG Semiannual Report
                                                                                                                                                    Appendix 8
    Peer Reviews of the TVA OIG

    Audits Peer Review                                                                                Investigations Peer Review
    IG audit organizations are required to undergo                                                    The Investigations organization undergoes an
    an external peer review of their system of quality                                                external peer review, Quality Assessment Review
    control at least once every three years, based on                                                 (QAR), at least once every three years. During
    requirements in the Government Auditing Standards                                                 the semiannual period ended March 31, 2011,
    (Yellow Book). Federal audit organizations can                                                    the Office of Personnel Management (OPM) OIG
    receive a rating of pass, pass with deficiencies, or                                              completed a QAR of the TVA OIG Investigative
    fail. The TVA OIG underwent its most recent peer                                                  Operations. The OPM OIG found the
    review of its audit organization after FY 2010. An ad                                             “. . . system of internal safeguards and management
    hoc team appointed by CIGIE and led by the U.S.                                                   procedures for the investigative function of the
    Department of Education (Education) OIG performed                                                 TVA OIG in effect for the year ending August 1,
    the review. Education OIG issued the report, dated                                                2010, is in compliance with the Quality Standards
    March 21, 2011, in which it concluded that the TVA                                                for Investigations and the Attorney General
    OIG audit organization’s system of quality control                                                guidelines. These safeguards and procedures
    for the FY ended September 30, 2010, was suitably                                                 provide reasonable assurance of conforming
    designed and complied with to provide the OIG with                                                with professional standards in the conduct of
    reasonable assurance of performing and reporting                                                  investigations.” The QAR report can be found on
    in conformity with applicable professional auditing                                               our Web site at http://oig.tva.gov/peer-review.html.
    standards in all material respects. Accordingly, the
    TVA OIG received a rating of pass. The peer
    review report is posted on our Web site at
    http://oig.tva.gov/peer-review.html.




  Tennessee River




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 63
glossary, abbreviations & acronyms
          TVA OIG SEMIANNUAL REPORT
                                                                                                                                                    Glossary

               Disallowed Cost - A questioned cost that management, in a management decision, has sustained
               or agreed should not be charged to the agency.


               Final Action - The completion of all management actions, as described in a management decision,
               with respect to audit findings and recommendations. When management concludes no action is
               necessary, final action occurs when a management decision is made.


               Funds Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could
               be used more efficiently by reducing outlays, deobligating program or operational funds, avoiding
               unnecessary expenditures, or taking other efficiency measures.


               Management Decision - The evaluation by management of the audit findings and
               recommendations and the issuance of a final decision by management concerning its response to
               such findings and recommendations.

               Questioned Cost - A cost the IG questions because (1) of an alleged violation of a law,
               regulation, contract, cooperative agreement, or other document governing the expenditure of funds;
               (2) such cost is not supported by adequate documentation; or (3) the expenditure of funds for the
               intended purposes was unnecessary or unreasonable.


               Unsupported Costs - A cost that is questioned because of the lack of adequate documentation
               at the time of the audit.


               Improper Payment - Any payment that should not have been made or was made in an incorrect
               amount under statutory, contractual, administrative, or other legally applicable requirements, as
               defined in the IPIA.




............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 65
   Abbreviations & Acronyms

          The following are abbreviations and acronyms widely used in this report.

          AIG............................................................................................................... Assistant Inspector General
          ALF................................................................................................................................ Allen Fossil Plant
          Bechtel......................................................................................................... Bechtel Power Corporation
          Bellefonte ......................................................................................................... Bellefonte Nuclear Plant
          Browns Ferry.................................................................................................Browns Ferry Nuclear Plant
          CAP.....................................................................................................................Corrective Action Plans
          CIGIE..............................................................Council of Inspectors General on Integrity and Efficiency
          CQAR.................................................................................................. Coal Quality Adjustment Reports
          CUF .................................................................................................................. Cumberland Fossil Plant
          DHS........................................................................................... U.S. Department of Homeland Security
          Education.................................................................................................U.S. Department of Education
          EIA............................................................................................. U.S. Energy Information Administration
          EPU ................................................................................................................... Extended Power Uprate
          FISMA.............................................................................Federal Information Security Management Act
          FY	............................................................................................................................................Fiscal Year
          IG	................................................................................................................................Inspector General
          INPO............................................................................................ Institute of Nuclear Power Operations
          IPIA................................................................................................... Improper Payment Information Act
          IRP....................................................................................................................Integrated Resource Plan
          IT	 ...................................................................................................................... Information Technology
          MTSA................................................................................Maritime Transportation Security Act of 2002
          MW........................................................................................................................................... Megawatt
          NCCC..............................................................National Center for Cybersecurity and Communications
          NRC.......................................................................................................Nuclear Regulatory Commission
          OIG......................................................................................................... Office of the Inspector General
          OMB.................................................................................................Office of Management and Budget
          OPM.................................................................................................... Office of Personnel Management
          OWCP................................................................................ Office of Workers’ Compensation Programs
          PER................................................................................................................ Problem Evaluation Report
          PHI............................................................................................................... Personal Health Information
          PII	..................................................................................................... Personally Identifiable Information
          QA............................................................................................................................... Quality Assurance
          QAR.............................................................................................................. Quality Assessment Review
          Sequoyah............................................................................................................Sequoyah Nuclear Plant
          SPP.....................................................................................................Standard Programs and Processes
          TVA................................................................................................................ Tennessee Valley Authority
          U.S. .....................................................................................................................................United States
          Watts Bar ........................................................................................................... Watts Bar Nuclear Plant
          WP......................................................................................................................... Winning Performance




...............................................................................................................................................................................................

66 | TVA OIG Semiannual Report
                          Office of the Inspector General
                          400 West Summit Hill Drive
                          Knoxville, Tennessee 37902

                          The OIG is an independent organization                                                    Report Concerns to the OIG EmPowerline
                          charged with conducting audits, evaluations,
                          and investigations relating to TVA programs
                          and operations, while keeping the TVA Board
                          and Congress fully and currently informed
                          about problems and deficiencies relating to the
                          administration of such programs and operations.                                                 EMPOWERLINE
                          The OIG focuses on (1) making TVA’s programs                                                            A confidential connection for reporting fraud,
                          and operations more effective and efficient;                                                                    waste or abuse affecting TVA.
                          (2) preventing, identifying, and eliminating waste,
                          fraud, and abuse as well as violations of laws, rules,
                          or regulations; and (3) promoting integrity
                                                                                                                                  How to Report a Concern
                                                                                                                                    Call toll-free: 855-882-8585
                          in financial reporting.

                          If you would like to report to the OIG any concerns
                          about fraud, waste, or abuse involving TVA
                                                                                                                                               or report on the web:
                          programs or violations of TVA’s Code of Conduct,                                                         www.OIGempowerline.com
                          you should contact the OIG EmPowerline system.
                          The EmPowerline is administered by a
                          third-party contractor and can be reached
                          24 hours a day, seven days a week, either by a
                          toll-free phone call (1-855-882-8585) or over the
                          Web (www.oigempowerline.com). You may report
                          your concerns anonymously or you may request
                          confidentiality.




                        Leadership
                                           OIG


                                        P HILO S O P H Y


                           The TVA OIG strives to be a high performing organization made up of
                           dedicated individuals who are empowered, motivated, competent, and
                           committed to producing high quality work that improves TVA and life in the
                           Valley.

                           Each of us has important leadership, management, team, and technical
                           roles. We value integrity, people, open communication, expansion of
                           knowledge and skills, creative problem solving, and collaborative decision
                           making.
............................................................................................................................................................................................

                                                                                                                                        TVA OIG Semiannual Report | 67
 THE CHALLENGE OF

MANAGING
Change
